APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment, United States
Court of Appeals for the Sixth Circuit
(April 24, 2020) . . . . . . . . . . . . . . App. 1a
Appendix B Opinion
and
Order Granting
Plaintiffs’ Motion for a Preliminary
Injunction, United States District
Court for the Middle District of
Tennessee
(April 17, 2020) . . . . . . . . . . . . . App. 52a
Appendix C Opinion
and
Order Denying
Defendants’ Motion for a Stay Pending
Appeal, United States District Court
for the Middle District of Tennessee
(April 21, 2020) . . . . . . . . . . . . . App. 69a
Appendix D Order Denying Rehearing, United
States Court of Appeals for the Sixth
Circuit
(May 14, 2020). . . . . . . . . . . . . . App. 79a
Appendix E Tennessee Executive Order No. 25
(April 8, 2020) . . . . . . . . . . . . . . App. 81a

App. 1a

APPENDIX A
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0127p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-5408
[Filed: April 24, 2020]
__________________________________________
ADAMS & BOYLE, P.C. et al.,
)
Plaintiffs-Appellees,
)
)
v.
)
)
HERBERT H. SLATERY III et al.
)
Defendants-Appellants. )
__________________________________________)
Appeal from the United States District Court
for the Middle District of Tennessee at Nashville.
No. 3:15-cv-00705—Bernard A. Friedman,
District Judge.
Before: MOORE, WHITE, and THAPAR, Circuit
Judges.

App. 2a
_________________
COUNSEL
ON MOTIONS AND REPLY: Sarah K. Campbell,
Steven A. Hart, Alexander S. Rieger, Matthew D.
Cloutier, OFFICE OF THE TENNESSEE ATTORNEY
GENERAL, Nashville, Tennessee, for Appellants.
ON RESPONSE: Thomas H. Castelli, AMERICAN
CIVIL LIBERTIES UNION FOUNDATION OF
TENNESSEE, Nashville, Tennessee, Genevieve Scott,
Autumn Katz, Michelle Moriarty, CENTER FOR
REPRODUCTIVE RIGHTS, New York, New York,
Maithreyi Ratakonda, PLANNED PARENTHOOD
FEDERATION OF AMERICA, New York, New York,
Richard Muniz, PLANNED PARENTHOOD
FEDERATION OF AMERICA, Washington, D.C., Scott
P. Tift, BARRETT JOHNSTON MARTIN &
GARRISON, LLC, Nashville, Tennessee, Michael J.
Dell, KRAMER LEVIN NAFTALIS & FRANKEL LLP,
New York, New York, Julia Kaye, AMERICAN CIVIL
LIBERTIES UNION FOUNDATION, New York, New
York, for Appellees. ON BRIEF: Edward L. White III,
AMERICAN CENTER FOR LAW & JUSTICE, Ann
Arbor, Michigan, S. Chad Meredith, OFFICE OF THE
KENTUCKY ATTORNEY GENERAL, Frankfort,
Kentucky, Laura Etlinger, OFFICE OF THE
ATTORNEY GENERAL OF NEW YORK, Albany, New
York, Lisa T. Simpson, ORRICK, HERRINGTON &
SUTCLIFFE LLP, New York, New York, Kevin H.
Theriot, ALLIANCE DEFENDING FREEDOM,
Scottsdale, Arizona, for Amici Curiae.

App. 3a
MOORE, J., delivered the opinion of the court in
which WHITE, J., joined. THAPAR, J. (pp. 23–33),
delivered a separate dissenting opinion.
_________________
OPINION
_________________
KAREN NELSON MOORE, Circuit Judge. This
case arises at the intersection of two essential
constitutional rights: the right of a woman to control
her pregnancy, on the one hand, and the right of the
state to exercise its “police power” during an
emergency, on the other. More specifically, we ask,
does the Constitution permit a state to bar doctors from
performing abortion procedures for a three-week
period—as part of a widespread temporary ban on
“elective” and “non-urgent” surgeries—based solely on
the state’s assertion that such a bar is necessary to
combat effectively an ongoing public health crisis? The
Governor of Tennessee thought so, and accordingly
adopted such a temporary ban on April 8, 2020, in
response to the ongoing COVID-19 global pandemic.
The district court, however, disagreed, and accordingly
issued a preliminary injunction on April 17, enjoining
Tennessee from enforcing its general ban on elective
and non-urgent surgeries against doctors performing
abortion procedures. The State then filed this
emergency appeal, and also requested that we
immediately stay the district court’s injunction pending
review.
We do not uphold an injunction against state action
lightly, much less during a public health crisis like the
one our nation is experiencing now. It is imperative in

App. 4a
such circumstances that judges give legislatures and
executives—the more responsive branches of
government—the flexibility they need to respond
quickly and forthrightly to threats to the general
welfare, even if that flexibility sometimes comes at the
cost of individual liberties. Affording flexibility,
however, is not the same as abdicating responsibility,
especially when well-established constitutional rights
are at stake, as the right to an abortion most assuredly
is. And, here, although we have great respect for the
challenges Tennessee faces as it responds to this novel
public health crisis, we agree with the district court
that the State’s response, in this one respect, unduly
curtailed constitutional liberty, and that judicial
intervention was thus warranted. By the same token,
however, we also conclude that, when it comes to the
precise scope of the district court’s injunction, the
district court went too far in asserting its authority.
Consequently, we AFFIRM the district court’s order
issuing a preliminary injunction but direct the district
court to MODIFY the preliminary injunction in the
manner described below. We also DENY the State’s
request for a stay pending appeal as MOOT.
I. BACKGROUND
Generally speaking, a Tennessee woman wishing to
exercise her constitutional right to a pre-viability1
abortion, in a legal manner, may do so in one of three
ways: (1) receive a “medication abortion” within the
1

As the Supreme Court clarified in Planned Parenthood of
Southeastern Pennsylvania v. Casey, the constitutional right to an
abortion ends (with some limited exceptions) once the fetus would
be “viable” outside the womb. 505 U.S. 833, 860, 870 (1992).

App. 5a
first 11 weeks from her last menstrual period (“LMP”);
(2) receive a “procedural abortion” within the first 20
weeks LMP, meaning either (a) an “aspiration”
abortion (which is a relatively quick clinical procedure,
and can be performed up to approximately 15 weeks
LMP), or (b) a “dilation and evacuation” (“D&E”)
abortion (which is a more time-consuming
procedure—albeit one that generally takes place in a
clinical setting, too— and is performed up to
approximately 20 weeks LMP); or (3) travel to a state
with more lenient abortion regulations. See generally
R.232-5 (Looney Dec.) (Page ID #5876–77).2 Tennessee
law also imposes a variety of other state-specific
regulations, such as a 48-hour waiting period and
mandatory in-person visitation requirements. See, e.g.,
Tenn. Code Ann. §§ 39-15-202(a)–(h). Moreover, if a
Tennessee woman wishes (or needs) to have a
procedural abortion in-state, there are just a handful of
providers in a handful of cities where she may do so.
See R.232-6 (Terrell Dec.) (Page ID #5908–09) (noting
that “[a]ccess to abortion care in [Tennessee] is limited
to begin with, with only eight providers in four cities”).
And of these clinics, only Planned Parenthood performs
abortions after 15 weeks LMP. See R.232-5 (Looney
Dec.) (Page ID #5877).
Still, abortion in general, and procedural abortion in
particular, remains relatively commonplace in
2

For context, Tennessee bans abortion altogether at “viability,”
which it presumes to occur at 24 weeks LMP. See Tenn. Code Ann.
§ 39-15-211(b)(5) (setting this as a “rebuttable presumption”).
Plaintiffs do not make clear, however, if any recognized in-state
clinics or doctors provide abortion services between 20 and 24
weeks LMP.

App. 6a
Tennessee, with hundreds of Tennessee women
exercising their right to seek an abortion in any given
month. See, e.g., id. at Page ID #5878 (stating that,
“[i]n January through March 2020, [Planned
Parenthood] performed 1,700 abortions in Tennessee,
917 of which were procedural abortions and 536 of
which occurred beyond eleven weeks LMP, when
medication abortion is not an option”).
With this background in mind, we now turn to the
ongoing COVID-19 public health crisis, an event with
which all but the most secluded of readers should be
familiar. Suffice it to say, COVID-19 is the virus at the
root of an ongoing global pandemic, which, in just a few
short months, has killed tens of thousands of people
worldwide and infected hundreds of thousands more.
See, e.g., Friends of DeVito v. Wolf, --- A.3d ---, 2020 WL
1847100, at *2 (Pa. Apr. 13, 2020). The virus has also
upended American economic and social life, causing
schools and businesses to shutter, and even the
nominally unaffected to wear masks and stand six feet
apart in public.
Unsurprisingly, then, medical providers, including
Tennessee’s abortion clinics, have had to modify their
way of doing business, for the safety of both staff and
patients. As three of the abortion providers involved in
this litigation have attested, for instance, COVID-19
has caused them to put at-risk staff on furlough, bar
patients from bringing companions with them to the
clinic, cut back work days, curtail the number of
personnel staffed on any given procedure, and
eliminate non-essential wellness appointments, among
other social-distancing measures. See R.232-5 (Looney
Dec.) (Page ID #5881–82) (Planned Parenthood of

App. 7a
Tennessee and North Mississippi); R.232-6 (Terrell
Dec.) (Page ID #5911–12) (Memphis Center for
Reproductive Health); R.232-7 (Rovetti Dec.) (Page ID
#5922–23) (Knoxville Center for Reproductive Health).
Still, to the Governor of Tennessee’s eye, voluntary
measures like these were not enough to limit effectively
the spread of the virus; more compulsory measures
were required. So, in addition to instituting a variety of
sweeping “shelter-in-place” orders throughout the
month of March, on April 8, 2020 the Governor issued
a targeted directive to “[a]ll healthcare professionals
and healthcare facilities in the State of Tennessee,”
requiring that they “postpone surgical and invasive
procedures that are elective and non-urgent,” at least
until April 30, when the order would expire on its own
terms. R.240-20 (Order) (Page ID #6115–16). This
Order, titled Executive Order 25 (“EO-25"), had the
twin goals of “preserving personal protective equipment
[“PPE”]3 for emergency and essential needs and
preventing community spread of COVID-19 through
nonessential patient-provider interactions.” Id. at Page
ID #6115. Its most relevant portion read as follows:
All healthcare professionals and healthcare
facilities in the State of Tennessee shall
postpone surgical and invasive procedures that
are elective and non-urgent. Elective and
non-urgent procedures are those procedures that
can be delayed until the expiration of this Order

3

The Order defined PPE as “including, but not limited to, medical
gowns, N95 masks, surgical masks, TYVEK suits, boot covers,
gloves, and/or eye protection.” Id. at Page ID #6116.

App. 8a
because they are not required [1] to provide life
sustaining treatment, [2] to prevent death or
risk of substantial impairment of a major bodily
function, or [3] to prevent rapid deterioration or
serious adverse consequences to a patient’s
physical condition if the surgical or invasive
procedure is not performed, as reasonably
determined by a licensed medical provider.
Id. at Page ID #6115–16 (alterations added).
The Order did not contain any provision specifically
exempting abortion procedures, or suggesting that
medical professionals would have leeway to perform a
procedure that, in their clinical judgment, “would not
deplete the hospital capacity or the [PPE] needed to
cope with the COVID-19 disaster.” Compare with In re
Abbott, 954 F.3d 772, 780 (5th Cir. 2020) (describing
this “important” caveat contained in an analogous
Texas COVID-19-related surgery ban).
Plaintiffs—more specifically, Adams & Boyle, P.C.;
Memphis Center for Reproductive Health; Planned
Parenthood of the Greater Memphis Region; Planned
Parenthood of Tennessee and North Mississippi;
Knoxville Center for Reproductive Health; and Dr.
Kimberly Looney— subsequently interpreted EO-25 as
barring the performance of any procedural4 abortions
between April 8 and April 30 (and potentially beyond
that, if the Order was extended), enforceable by
criminal sanction. See, e.g., R.232-7 (Rovetti Dec.)
(Page ID #5921). And, as a result of this
4

The parties agree that EO-25 has no effect on medication
abortions, which may continue to be performed.

App. 9a
understanding, Plaintiffs temporarily cancelled all
procedural abortions scheduled for that period. See,
e.g., id. at Page ID #5924 (describing four “devastated,”
“crying” clients scheduled for procedural abortions on
April 9 that the clinic had to turn away because of
EO-25); R.232-6 (Terrell Dec.) (Page ID #5915–16)
(describing similar incident at a different clinic, and
also noting that the clinic had “156 patients scheduled
for their mandatory [pre-abortion] in-person counseling
appointments between [April 13] and April 22"). At the
same time, fearing that EO-25 might cause their
patients to lose their constitutional right altogether, or
at least impose an “undue burden” on that right, Casey,
505 U.S. at 876, as well as cause them (the providers)
to face criminal prosecution if they attempted to help
their patients procure a procedural abortion, Plaintiffs
sought in the federal district court a “temporary
restraining order and/or preliminary injunction,”
barring the State from enforcing “EO-25 as applied to
procedural abortions.” R.232 (Pls.’ Preliminary Inj. Br.)
(Page ID #5782–83).5
5

Plaintiffs then highlighted the three groups of patients who most
urgently needed protection:
(1) patients who, in the good faith professional judgment
of the provider, will likely lose their ability to obtain an
abortion in Tennessee if their procedures are delayed until
after April 30, 2020; (2) patients who, in the good faith
professional judgment of the provider, will likely be forced
to undergo a lengthier and more complex abortion
procedure, which is only available at two clinics in
Nashville and Memphis, if their procedures are delayed
until after April 30, 2020; [and] (3) patients who, in the
good faith professional judgment of the provider, will likely
be forced to undergo a two-day procedure—which is only

App. 10a
Tennessee opposed the request. And notably, in its
brief in opposition, the State appeared to concede that
EO-25 operated just as Plaintiffs thought it would: as
a three-week criminal prohibition on procedural
abortions, albeit with the exception that the provider
could perform an abortion if it is required to “prevent
rapid deterioration or serious adverse consequences to
a patient’s physical condition” (which the State did not
explain in any greater detail). R.240 (Defs.’ Opp. Br.)
(Page ID #6022).
The district court accordingly held an emergency
telephonic conference, which lasted 90 minutes, and at
which both sides explained the evidence undergirding
their respective positions.
***
Plaintiffs’ evidentiary showing was as follows:
Harm to Patients. Plaintiffs first pointed out
multiple ways in which their patients would be harmed
by even a three-week bar on procedural abortions, all
turning on the basic fact that pregnancy, unlike many
other medical conditions, progresses on a rapid, and
inevitable, timeline. First, there were procedural
abortion patients who would not be able to obtain an
abortion at all, either because their pregnancy would
advance past 20 weeks LMP by April 30 (when

available at two clinics in Nashville and Memphis, and
which requires at least three separate visits to the
provider—if their procedures are delayed until April 30,
2020.
R.232 (Page ID #5783)

App. 11a
Plaintiffs could last provide the procedure), or because
overburdened waiting lines following April 30 and/or
travel limitations would effectively prevent the patient
from receiving the procedure. See, e.g., R.232-5 (Looney
Dec.) (Page ID #5887–88). Second, there were
procedural abortion patients who would be forced
against their will to undergo the more time-consuming,
invasive, and expensive D&E procedure because, by
April 30, they would have “aged out” of the more
common aspiration procedure. See, e.g., id. at Page ID
#5889. And, third, there were procedural abortion
patients who, even if ultimately able to obtain the same
type of abortion procedure they would have sans
EO-25, would be forced either to travel out-of-state,
and face the accordant COVID-19 transmission risks,
see, e.g., id. at 5890, or maintain their pregnancy
substantially longer than they otherwise would have,
and bear the resulting health risks, see, e.g., id. at Page
ID #5888–89 (noting that, “[w]hile abortion is
extremely safe throughout pregnancy, the risks
increase as pregnancy progresses, and the later in
pregnancy a patient accesses a procedural abortion the
more likely she is to experience a rare complication”).
Plaintiffs further pointed out that their patients, like
most abortion patients nationwide, are predominantly
“poor or low-income,” and hence “already struggle to
raise the money to afford an abortion, and to afford
transportation, childcare, and lost wages for missed
work.” Id. at Page ID #5878, 5890–91.
Harm to the State. Plaintiffs also emphasized the
corresponding lack of harm procedural abortions posed
to the State’s interests in preserving PPE and
minimizing person-to-person contact. For instance,

App. 12a
Plaintiffs observed, because procedural abortions
generally are performed at clinics—not hospitals—and
with limited personnel, they require “minimal”
amounts of PPE and interpersonal interaction. See,
e.g., R.232-6 (Terrell Dec.) (Page ID #5913–14). Indeed,
Plaintiffs added, their staff do not even use the
(much-coveted) N95 respirator masks.6 Id. If anything,
Plaintiffs continued, requiring a woman either to
receive a D&E procedure instead of an aspiration
procedure, or carry her child all the way to pregnancy
(with the accordant mandatory maternal care visits),
would result in far more PPE usage and interpersonal
interaction than simply permitting abortions to go
forward at an appropriately maintained clinic. See, e.g.,
R.232-5 (Looney Dec.) (Page ID #5882–83).
Statements from Medical Organizations. Plaintiffs
also cited statements from prominent medical
organizations in which those organizations emphasized
that, as serious a threat to public health as COVID-19
presents, abortion nonetheless remains an “essential,”
“time-sensitive service for which a delay of several
weeks, or in some cases days, may increase the risks [to
patients] or potentially make it completely
unavailable.” Id. at Page ID #5879 (alteration in

6

Per the Food & Drug Administration, an “N95 respirator is a
respiratory protective device designed to achieve a very close facial
fit and very efficient filtration of airborne particles.” N95 masks
are not, however, recommended for public usage, as they constitute
“critical supplies that must continue to be reserved for health care
workers and other medical first responders.” See https://www.fda.gov/
medical-devices/personal-protective-equipment-infection-control/n95respirators-and-surgical-masks-face-masks (last accessed Apr. 21,
2020).

App. 13a
original) (citing statement signed by the American
College of Obstetricians and Gynecologists, among
others).7
Likelihood that EO-25 Would Last Past April 30.
Finally, Plaintiffs offered some evidence that their fear
that EO-25 would last past April 30—thus turning a
three-week postponement of procedural abortions into
something more draconian—was warranted. See, e.g.,
R.232-5 (Looney Dec.) (Page ID #5892) (citing
statement from the Surgeon General saying that he
expected social-distancing measures to “be in place
beyond April”).
***
The State, for its part, pointed to the following
countervailing evidence in response:
Harm to the State. The State first emphasized that,
as of April 14, 2020, there were nearly 6,000 cases of
COVID-19 in Tennessee, along with 124 deaths, see
R.240-1 (Apr. 14 Count) (Page ID #6029), and that,

7

Moreover, after the onset of this appeal, over a dozen leading
medical organizations—including the American Public Health
Organization and (again) the American College of Obstetricians
and Gynecologists—signed onto amicus briefs asserting, in no
uncertain terms, (1) that abortion is an essential health service,
and (2) that restricting access to that service will not “save lives,”
or otherwise meaningfully halt the spread of COVID-19. See App.
R. 30 (Amicus Br. for Am. Public Health Ass’n and Experts in
Public Health); App. R. 42 (Amicus Br. for Am. College of
Obstetricians and Gynecologists and Other Nationwide
Organizations of Medical Professionals); see also Appellee Br. at 1
n.1 (citing similar guidance from the American College of Surgeons
and the World Health Organization).

App. 14a
given the intensely contagious nature of the virus,
social distancing was necessary to prevent those
numbers from growing at an exponential rate,
especially among healthcare professionals themselves,
see, e.g., R.240-11 (CDC Release) (Page ID #6076–77)
(discussing social distancing); R.240-12 (NYT Article)
(Page ID #6079–82) (discussing risks to health
workers). The State also noted that, per guidance from
the Centers for Disease Control and Prevention
(“CDC”), the State needed to preserve as much PPE for
its front-line hospital employees as possible, i.e., those
dealing with COVID-19 patients, and that EO-25 was
an essential element of that plan. See, e.g., R.240-13
(CDC PPE Tips) (Page ID #6083–84). The State further
pointed out that, although there was evidence that its
various social-distancing measures had successfully
lowered the virus’s growth rate, that evidence simply
underscored the importance of maintaining those
measures to the maximum extent possible. See, e.g.,
R.240-7 (Vanderbilt Health Policy COVID-19 Modeling
for Tennessee) (Page ID #6059–65). And, in response to
Plaintiffs’ contention that their PPE usage was
minimal, the State observed that, even if procedural
abortions constituted a relatively small number of
delayed medical procedures, and even if the resulting
PPE usage was “minimal,” “[e]very procedure that is
postponed, and every item of PPE that is preserved,
furthers the State’s compelling interests in halting the
spread of COVID-19 and ensuring our healthcare
system is equipped to treat—and prevent the death
of—those who are infected.” R.240 (Defs.’ Opp. Br.)
(Page ID #6019–20).

App. 15a
Harm to Patients. In response to Plaintiffs’
statements that EO-25 would inhibit their patients’
ability to obtain abortions, the State essentially
attempted to show that Plaintiffs’ evidentiary showing
was a paper tiger. The State first emphasized that,
because Plaintiffs had neither identified any “actual
patient[s] who would be denied an abortion before the
order expires in two weeks,” nor “estimated what
fraction of women could be allegedly denied an abortion
by operation of [EO-25],” there were presumably very
few abortion patients who would be materially harmed
by the Order. Id. at Page ID #6022. The State then
generally asserted that, to the extent EO-25 posed any
“serious adverse health consequences” to an abortion
patient, the clinic could perform that abortion “without
delay” (although, again, without explaining what that
exception meant). Id.
Statements from Medical Organizations. The State
did not cite any countervailing statements suggesting
that abortions procedures are not “essential”
procedures, or that limiting such procedures is
necessary to fight COVID-19.
Likelihood that EO-25 Would Last Past April 30.
Although the State repeatedly cited EO-25’s limited
duration as a reason injunctive relief was unnecessary,
the State did not appear to offer any assurances, in its
brief or otherwise, that EO-25 would in fact end on
April 30. If anything, the general tone of the State’s
evidentiary showing—which emphasized the severe
consequences portended by COVID-19—suggested the
opposite.
***

App. 16a
The parties also provided the district court with
thorough and thoughtful briefing, in which they
addressed not only the major abortion cases, such as
Casey, but also Supreme Court precedent concerning
the expanded scope of a state’s police power during
times of public health crisis, most notably Jacobson v.
Massachusetts, 197 U.S. 11 (1905) (affirming the state’s
power to make vaccination compulsory).
On Friday, April 17—just a few hours after the
evidentiary hearing—the district court issued a short,
but thoughtful, order granting Plaintiffs’ request for a
preliminary injunction.8 See Adams & Boyle, P.C. v.
Slatery, No. 3:15-cv-705, 2020 WL 1905147 (M.D. Tenn.
Apr. 17, 2020). In this order, the district court
acknowledged that preliminary injunctions are
“extraordinary relief,” but ultimately found, after
considering the evidence, that such an injunction was
warranted here. Id. at *4. Most importantly, the
district court emphasized that because EO-25 was
“likely” to last past April 30, and because “[d]elaying a
woman’s access to abortion even by a matter of days
can result in her having to undergo a lengthier and
more complex procedure that involves progressively
greater health risks . . . or can result in her losing the
right to obtain an abortion altogether,” the Plaintiffs
were likely to succeed on the merits of their
constitutional claim, per the Casey “undue burden”
test. Id. at *5–6 (citation omitted). The district court

8

Although the district court’s order at times references Plaintiffs’
alternative request for a temporary restraining order, read in
context, the court clearly granted Plaintiffs a preliminary
injunction. Indeed, neither party argues to the contrary on appeal.

App. 17a
also concluded that, “[w]hile the stated goal of EO-25 to
preserve PPE [was] unquestionably laudable,” the
State “presented no evidence that any appreciable
amount of PPE would actually be preserved if EO-25 is
applied to procedural abortions.” Id. at *6. To the
contrary, the court noted, “procedural abortion[s] use[]
less PPE and involve[] significantly less patient
interaction than carrying a pregnancy to term and
giving birth.” Id. The court further added that making
women travel out-of-state for abortion only increased
the risks of person-to-person transmission of
COVID-19, again in contradiction of EO-25’s goals.
The district court accordingly concluded its opinion
with the following, brief preliminary injunction order:
“Defendants are hereby immediately enjoined from
enforcing EO-25 as applied to procedural abortions.” Id.
at *7. And, as a result of this order, Plaintiffs have
presumably begun providing, and scheduling,
procedural abortions again.
In response, the State filed immediately with the
district court a request that the court stay its
injunction pending appeal, followed by a notice of
appeal. And, before the district court had a chance to
respond to the State’s stay request, the State filed a
brief in this court entitled, “Combined Emergency
Motion for Stay Pending Appeal and Merits Brief,” in
which the State requested that we, as an initial matter,
issue “a temporary administrative stay while [we]
consider[] the stay motion,” and then that we “grant an
emergency stay of the preliminary injunction while
[we] consider[] the merits of the State’s appeal, and
then reverse the district court.” Appellant Br. at 3 n.1,
27.

App. 18a
On Monday April 20, we denied the State’s request
for an administrative stay (with one judge dissenting),
and asked the parties to provide expedited briefing so
that we could consider the issues raised in the State’s
appeal with the benefit of argument from both sides.
App. R. 9.9 The parties have now provided that briefing,
and the question of whether the district court acted
properly in enjoining the State’s enforcement of EO-25
is ripe for our review.
II. DISCUSSION
Because the parties have sufficiently briefed the
merits questions before us, and because time is of the
essence, we forgo consideration of the State’s stay
request and instead proceed straight to the preliminary
injunction analysis.10
A.
A preliminary injunction is an “extraordinary
remedy never awarded as of right.” Winter v. Nat. Res.
Def. Council, Inc., 555 U.S. 7, 24 (2008). Rather, the
9

Two days after we issued this order the district court denied the
State’s request for a stay. See R.252.

10

We acknowledge the State’s alternative argument that Plaintiffs
do not have proper “third-party standing” to bring this suit on
behalf of their patients. Appellant Br. at 22. But because Plaintiffs
unquestionably have standing to sue on their own behalf (because
EO-25 potentially threatens them with criminal prosecution) we
need not address third-party standing. See In re Abbott, 954 F.3d
at 782 n.17 (“[The plaintiff abortion providers] have standing to
sue on their own behalf because [the at-issue Executive Order]
‘directly operates’ against them.” (citing Planned Parenthood of
Cen. Mo. v. Danforth, 428 U.S. 52, 62 (1976))).

App. 19a
party seeking the injunction must prove: (1) that they
are likely to succeed on the merits of their claim,
(2) that they are likely to suffer irreparable harm in the
absence of preliminary relief, (3) that the balance of
equities tips in their favor, and (4) that an injunction is
in the public interest. Id. at 20. A court considering
whether to grant a preliminary injunction must
therefore “balance the competing claims of injury and
must consider the effect on each party of the granting
or withholding of the requested relief.” Id. at 24
(quoting Amoco Prod. Co. v. Vill. of Gambell, 480 U.S.
531, 542 (1987)). Moreover, when crafting an
injunction, a district court must take care to “limit the
solution to the problem,” for example, by “enjoin[ing]
only the unconstitutional applications of a [policy]
while leaving other applications in force.” Ayotte v.
Planned Parenthood of N. New England, 546 U.S. 320,
328–29 (2006). We review a district court’s application
of these principles for abuse of discretion. Am. Civil
Liberties Union Fund of Mich. v. Livingston Cty., 796
F.3d 636, 642 (6th Cir. 2015).
1.
We begin by asking whether Plaintiffs have shown
that they are likely to succeed on the merits of their
constitutional claim. We conclude that they are.
In Roe v. Wade, 410 U.S. 113 (1973), the Supreme
Court held that the provision of the Fourteenth
Amendment establishing that no state “shall . . .
deprive any person of life, liberty, or property, without
due process of law,” includes within it a substantive
guarantee of reproductive liberty, that is, a promise
that no state shall prevent a woman from terminating

App. 20a
her pregnancy if she so chooses (subject to certain
limitations, depending on the trimester of pregnancy).
The Court then narrowed this right in Planned
Parenthood of Southeastern Pennsylvania v. Casey,
clarifying that states could ban abortion after
“viability,” see supra n.1, and could also regulate the
practice of abortion before then, so long as those
regulations did not impose an “undue burden,” which
the Court defined as a “provision of law” whose
“purpose or effect [was] to place a substantial obstacle
in the path of a woman seeking an abortion.” 505 U.S.
at 878. Still, the Casey court was careful to distinguish
between regulation and prohibition, emphasizing that,
“[r]egardless of whether exceptions are made for
particular circumstances, a State may not prohibit any
woman from making the ultimate decision to terminate
her pregnancy before viability.” Id. at 879.
Casey’s undue burden framework, and the
accordant distinction between regulation and
prohibition, has not always been easy to apply. See,
e.g., Whole Woman’s Health v. Hellerstedt, 136 S. Ct.
2292, 2309–10 (2016) (discussing differing
interpretations). But in the context of “time
regulations” like the three-week measure at issue here,
courts appear to have readily distinguished between
the imposition of a short waiting period, see, e.g., Casey,
505 U.S. at 885–86 (upholding state law requiring
24-hour waiting period prior to abortion); Cincinnati
Women’s Servs., Inc. v. Taft, 468 F.3d 361, 372–73 (6th
Cir. 2006) (same), and the outright curtailment of the
abortion right, see, e.g., Jackson Women’s Health Org.
v. Dobbs, 945 F.3d 265 (5th Cir. 2019) (rejecting state
law prohibiting abortions, with limited exceptions,

App. 21a
after 15 weeks LMP); McCormack v. Herzog, 788 F.3d
1017 (9th Cir. 2015) (same, with respect to a law
prohibiting abortions after 20 weeks LMP). And,
notably, although Casey upheld a 24-hour waiting
period, the Court described the question as “close[],”
and noted that the potential of such a policy to prevent
low-income women from seeking an abortion at all was
“troubling.” 505 U.S. at 885–86.
Were there no public health crisis, then, the
analysis would be relatively straightforward: by
banning all procedural abortions for a three-week
period—limited by only a vague, undefined exception
for women who needed the abortion to avoid facing
“serious adverse health consequences”—EO-25 placed
“a substantial obstacle in the path of” Tennessee
women attempting to obtain a procedural abortion
during that time period, and thus constituted an undue
burden. Casey, 505 U.S. at 878. Indeed, as the evidence
presented in the district court elucidated, depending on
the stage of a woman’s pregnancy, EO-25 functioned
not just as a “delaying regulation,” the likes of which
are generally reviewed under Casey’s undue burden
standard, but also as an outright ban on pre-viability
abortion, which would unquestionably be verboten
under Casey and Roe. And if that weren’t enough, the
women affected by EO-25 (and the Plaintiff providers)
do not know if EO-25 will even end on April 30, thus
making the burden of “planning ahead”—a necessity
for a time-sensitive procedure like abortion—all the
more crushing. Suffice it to say, in normal times there

App. 22a
is no way that a measure like EO-25 would pass
constitutional muster.11
But, of course, we are not living in normal times; we
are living in pandemic times. And so the State points
us to Jacobson v. Massachusetts, 197 U.S. 11 (1905), a
century-old case in which the Supreme Court held that
a city faced with the risk of a viral outbreak could
require all of its adult residents to be vaccinated
against that virus. See Appellant Br. at 12 (contending
that “Jacobson establishes the legal framework for
judicial review of the State’s exercise of its police power
during public-health emergencies”). Jacobson is an
important case, and it is unfortunate that the district
court did not address it until it issued its order denying
Tennessee’s request for a stay. See R.252 at Page ID
#6267–68 (analyzing Jacobson in denying stay). But we
are not convinced that this matters because even if
Jacobson’s more state-friendly standard of review is
the test we should be applying here—rather than the
usual Roe/Casey standard—we still think that
Plaintiffs are likely to succeed on the merits of their
constitutional claim.

11

True, the Supreme Court has long permitted states to enact
parental consent regulations, which can sometimes have the effect
of delaying an abortion for a weeks-long period. See, e.g., Garza v.
Hargan, 874 F.3d 735, 755 (D.C. Cir. 2017) (en banc) (Kavanaugh,
J., dissenting) (making this point). But to the extent parental
consent laws have a delaying effect, that is for reasons outside a
state’s control. The permissibility of such regulations in no way
suggests that the Supreme Court would countenance a
state-mandated three-week delay period, at least in ordinary
circumstances.

App. 23a
In Jacobson, the Supreme Court affirmed the
imposition of a five-dollar criminal fine12 on a
Cambridge, Massachusetts resident who refused to
comply with the city’s mandatory vaccination regime,
which Cambridge had enacted in response to a
smallpox outbreak. The resident then appealed his
conviction to the Supreme Court, arguing that the
mandatory vaccination statute was unconstitutional.
Although the Court acknowledged that the statute
unquestionably impinged on the resident’s individual
autonomy, cf. Guertin v. State, 912 F.3d 907, 918–22
(6th Cir. 2019) (discussing the Fourteenth Amendment
right to bodily integrity), the Court ultimately found
that the statute was justified on public health grounds,
and emphasized that the safety and importance of
vaccines “[w]hile not accepted by all,” were “accepted by
the mass of the people, as well as by most members of
the medical profession.” 197 U.S. at 34 (citation
omitted). And in explaining the standard of review
courts should employ when confronted with such a
public health measure, the Court held as follows:
If there is any such power in the judiciary to
review legislative action in respect of a matter
affecting the general welfare, it can only be
when that which the legislature has done comes
within the rule that, if a statute purporting to
have been enacted to protect the public health,
the public morals, or the public safety, has no
real or substantial relation to those objects, or is,
beyond all question, a plain, palpable invasion of
rights secured by the fundamental law, it is the
12

Approximately $140, adjusted for inflation.

App. 24a
duty of the courts to so adjudge, and thereby
give effect to the Constitution.
Id. at 31 (emphasis added).
Leave aside the myriad factual differences between
this case and Jacobson—asking a person to get a
vaccination, on penalty of a small fine, is a far cry from
forcing a woman to carry an unwanted fetus against
her will for weeks, much less all the way to term—and
the challenge of reconciling century-old precedent with
the Supreme Court’s more recent constitutional
jurisprudence. The bottom line is that, even accepting
Jacobson at face value, it does not substantially alter
our reasoning here. As of today, a woman’s right to a
pre-viability abortion is a part of “the fundamental
law.” And, for the reasons set forth above, EO-25, at
least in some applications—most notably, those that
would prevent a woman from exercising her right
in-state altogether, or would require her to undergo a
more invasive and costlier procedure that she
otherwise would have—constitutes “beyond question,
a plain, palpable invasion of rights secured by [that]
fundamental law.”
More still, although mandatory vaccination clearly
had a “real” and “substantial” relation to the state’s
public health goals in Jacobson—indeed, as the
Supreme Court emphasized, the importance of
vaccination was widely accepted by the medical
community—it is much harder to discern that relation
here, given the paltry amount of PPE saved, and
limited amount of in-person contact avoided, by halting
procedural abortions for a three-week period (not to
mention the lack of expert medical opinion in support

App. 25a
of the State’s position). And although the State cites
language in Jacobson stating, “[i]t is no part of the
function of a court or a jury to determine which one of
two [responses] [is] likely to be most effective for the
protection of the public against disease,” id. at 30—and
suggests that this means we must defer uncritically to
the State’s ipse dixit that a three-week bar on
procedural abortions is necessary to save critical PPE
and preclude risky interpersonal contact, see supra at
9—neither Jacobson in particular, nor Supreme Court
abortion precedent in general, requires such
abdication. See, e.g., Jacobson, 197 U.S. at 34–38
(discussing the voluminous medical evidence in support
of vaccination); Hellerstedt, 136 S. Ct. at 2310 (noting
that uncritical deference to a legislature’s factual
findings regarding abortion is inappropriate).
The dissent disagrees with us on this last point,
arguing that the State’s three-week bar on procedural
abortions does have a “real and substantial
relationship to the current pandemic,” and, indeed,
that, if we don’t allow that bar to go into effect,
“doctors, nurses, and first responders will die . . . .”
Dissent at 29, 31. But the dissent roots these bold
assertions in nothing more than the State’s say-so. The
Center for Disease Control and Prevention (“CDC”)
webpage the dissent cites certainly does not support
the State’s position. That webpage simply recommends
that U.S. healthcare facilities preserve PPE and cancel
“elective and non-urgent procedures/appointments”; it
says absolutely nothing about abortion. Id. at 29. And
the State has never, at any point in this litigation,
attempted to support its policy choice with expert or
medical evidence. See supra at 10. This is unsurprising

App. 26a
because, as far as we can tell, every serious medical or
public health organization to have considered the issue
has said the opposite. See, e.g., supra at 8 n.7 (citing
statements signed by over a dozen leading medical
organizations). So, in our view, the dissent’s position is
not so much deference as it is abdication.
Of course, we do not mean to suggest that abortion
rights during a public health crisis are identical to
abortion rights during normal times. If Jacobson
teaches us anything, it is that context matters. And as
noted in Section B, infra, we have tried to
accommodate for that context here. What we will not
countenance, however, is the notion that COVID-19 has
somehow demoted Roe and Casey to second-class
rights, enforceable against only the most extreme and
outlandish violations. Such a notion is incompatible not
only with Jacobson, but also with American
constitutional law writ large. See generally, e.g., Ex
Parte Milligan, 71 U.S. 2, 76 (1866) (“The Constitution
of the United States is a law for rulers and people,
equally in war and peace, and covers with the shield of
its protection all classes of men, at all times, and under
all circumstances.”).
We conclude by acknowledging that orders
analogous to EO-25 have generated a flood of litigation
the past few weeks, and that judges across the country
have reached differing conclusions as to the orders’
legality. Compare, e.g., In re Rutledge, No. 20-1791 (8th
Cir. Apr. 22, 2020); In re Abbott, ---F.3d ---, 2020 WL
1911216 (5th Cir. Apr. 20, 2020); In re Abbott, 954 F.3d
772 (5th Cir. 2020), with Robinson v. Attorney General,
--- F.3d ---, 2020 WL 1952370 (11th Cir. Apr. 23, 2020);
In re Abbott, 2020 WL 1911216, at *18–30 (Dennis, J.,

App. 27a
dissenting); In re Rutledge, No. 20-1791, slip op. at 24
(Loken, J., dissenting); South Wind Women’s Ctr., LLC
v. Stitt, 2020 WL 1932900 (W.D. Okla. Apr. 20, 2020)
(Goodwin, J.). Given the speed at which this issue is
developing, we decline to address these other opinions
in detail; suffice it to say, it is clear that there exists
profound, but good faith, disagreement as to the
constitutional questions involved. We will note,
however, that the Texas executive order underlying the
recent Fifth Circuit decision—a decision the State cites
repeatedly in its brief here—is fundamentally different
than EO-25. This is because the Texas order contains
an important caveat permitting doctors to perform
procedures that, in their clinical judgment, “would not
deplete the hospital capacity or the [PPE] needed to
cope with the COVID-19 disaster.” In re Abbott, 954
F.3d at 780; see also In re Abbott, 2020 WL 1911216, at
*30 (Dennis, J., dissenting) (noting that the plaintiff
abortion providers there had “represented that all of
their abortion care will fall” under this exception).
EO-25, by contrast, contains no such caveat, other than
the “serious adverse health consequences” exception
mentioned above. But because a woman could plainly
have her right to an abortion undermined without her
suffering “serious adverse health consequences”—
indeed, if a woman is forced to undergo an unwanted,
but otherwise healthy, pregnancy as a result of EO-25
she would presumably fall outside the exception’s
scope—this narrow provision does not save EO-25’s
constitutionality.
In sum, Plaintiffs are likely to succeed on the merits
of their constitutional claim.

App. 28a
2.
We now address the remaining three preliminary
injunction factors, in turn.
Irreparable Harm. This is not a case that can be
remedied with money damages, or a post-hoc apology.
Rather, if Tennessee is allowed to enforce EO-25 in the
sweeping manner that it desires, any woman in
Tennessee who wishes to have a procedural abortion
during the relevant time period stands at risk of losing
her constitutional rights, or at least of incurring
substantial physical, emotional, and financial harms en
route to exercising those rights; this is especially so for
the low-income women who disproportionately seek out
abortions and who have been disproportionately
harmed by the economic downturn generated in
COVID-19’s wake. And Plaintiffs are at risk of criminal
prosecution if they attempt to help their patients
exercise that right.13
13

To be sure, as the State emphasized in the district court, and as
the dissent hammers home here, Plaintiffs have not pointed to
specific patients who would be irreparably harmed by EO-25. But
cf. R.248-1 (Chism Aff.) (Page ID #6168–72) (affidavit filed after
the district court issued its injunction, in which a Knoxville woman
who was 13 weeks LMP at the time EO-25 went into effect
explained how she risked losing her ability to obtain any abortion
in Tennessee as a result of the Order). But given the rapid timeline
under which Plaintiffs were operating, and the obvious reality that
any Tennessee woman who would like to have a procedural
abortion during the month of April would be impacted by EO-25,
we can forgive Plaintiffs for not being hyper-specific. And, in any
event, Plaintiffs provided evidence that hundreds of women in any
given month seek procedural abortions because they are past the
point where medication abortion is an option, and that they
(Plaintiffs) had to cancel specific procedural abortion appointments

App. 29a
Balance of Harms. That Plaintiffs have pointed to
concrete threats to constitutional liberty and bodily
autonomy does not guarantee them an injunction, of
course. Rather, we must “balance the competing claims
of injury and must consider the effect on each party of
the granting or withholding of the requested relief.”
Winter, 555 U.S. at 24 (emphasis added) (quoting
Amoco, 480 U.S. at 542). Here, though, we find the
“competing claims of injury” cited by the State to be
speculative and abstract; they do not outweigh the
tangible harms EO-25 risks wrecking on Plaintiffs and
their patients.
Most potently, the State raises the specter of
further COVID-19 contamination—and the accordant
risk of yet more Tennesseans dying from the
disease—saying that such harms are “certain to occur”
if procedural abortions are allowed to take place.
Appellant’s Br. at 24; see also R.240 (Defs.’ Opp. Br.)
(Page ID #6019–20) (“Every procedure that is
postponed, and every item of PPE that is preserved,
furthers the State’s compelling interests in halting the
spread of COVID-19 and ensuring our healthcare
system is equipped to treat—and prevent the death
of—those who are infected.”). We cannot gainsay the
threat posed by COVID-19; as we stated at the outset
of the opinion, these are extraordinary times calling for
because of EO-25, including some where the woman was literally
at the clinic. See supra at 3–4, 5–6. All of this is to say, there is no
reason to think that, in April 2020, Tennessee women suddenly
stopped deciding to have procedural abortions. Moreover, as
Plaintiffs’ amici make clear, the medical risks at stake are
anything but speculative. See, e.g., Br. of Am. Public Health Ass’n
at 2–7.

App. 30a
extraordinary measures. But, with respect to just those
procedural abortions affected by the district court’s
injunction (as modified below), the State’s proffered
harm is purely speculative. As the district court noted,
the State presented “no evidence that any appreciable
amount of PPE would actually be preserved if EO-25 is
applied to procedural abortions,” and the State has not
remedied that shortcoming on appeal. Adams & Boyle,
P.C., 2020 WL 1905147, at *6; see also supra at 16–17
(further discussing the lack of medical evidence in
support of the State’s position).
In response, the State suggests that if we permit
this one exemption, surely the joint-replacement
surgeons, the cataract-removal specialists, and every
other medical provider affected by EO-25’s bar on
elective procedures will follow, with similar “minimal
impact” arguments in tow. Cf. Pre-Term Cleveland v.
Attorney General of Ohio, 2020 WL 1673310, at *4 (6th
Cir. Apr. 6, 2020) (Bush, J., concurring) (deeming this
“a serious free rider” problem). But this contention fails
to appreciate that abortion is fundamentally different
than a hip replacement or a cataract removal: not only
is abortion entitled to explicit constitutional protection,
but also, as the district court appropriately recognized,
it is a uniquely “time-sensitive procedure,” both as a
biological matter and a regulatory matter. Adams &
Boyle, P.C., 2020 WL 1905147, at *6. After all, how
many other elective procedures have mandatory
48-hour waiting periods beforehand, and are available
in only four cities state-wide? So if there is a slippery
slope here, we fail to see it.
Tennessee also emphasizes that a state’s
“sovereignty is irreparably harmed anytime action

App. 31a
taken by its democratically elected leaders is enjoined,”
and argues that we should take account of that harm
here. Appellant Br. at 24 (citing Abbott v. Perez, 138 S.
Ct. 2305, 2324 (2018)). But as we stressed at the outset
of this opinion, we have taken that harm into account.
And, in the particular circumstances of this case, we
find that the affront the Governor of Tennessee will
suffer from having one small part of a limited-duration
executive order enjoined (which itself is just one piece
of a much more comprehensive state policy) is far
outweighed by the harm the individual Tennessee
women affected by that order will suffer if it is given
full effect.
The Public Interest. We need not say much on this
point. As the district court correctly observed, “it is
always in the public interest to prevent violation of a
party’s constitutional rights.” Deja Vu of Nashville,
Inc. v. Metro Gov’t of Nashville & Davidson Cty., Tenn.,
274 F.3d 377, 400 (6th Cir. 2001) (quoting G & V
Lounge, Inc. v. Mich. Liquor Control Comm’n, 23 F.3d
1071, 1079 (6th Cir. 1994)).
* * *
For these reasons, the district court did not abuse
its discretion in granting a preliminary injunction.
B.
This leaves one final matter: the scope of the district
court’s injunction. As noted above, the district court’s
order is just one sentence long: “Defendants are hereby
immediately enjoined from enforcing EO-25 as applied
to procedural abortions.” The State argues that this
perfunctory order is overbroad, and that the district

App. 32a
court failed to “tailor its injunctive relief” to the
burdensome situations actually identified by Plaintiffs.
Appellant Br. at 21; compare with, e.g., Robinson, 2020
WL 1952370, at *8 (in the course of denying state’s
request for a stay on appeal, citing with approval the
district court’s “narrowly tailored” preliminary
injunction); cf. Pre-Term Cleveland, 2020 WL 1673310,
at *1 (similar conclusion, in TRO context).
On this point, we agree with the State. As explained
earlier, because a preliminary injunction is an
extraordinary remedy, a district court must be careful
to “limit the solution to the problem.” Ayotte, 546 U.S.
at 328–29. And, here, the undue burden problem
identified by Plaintiffs encompassed three classes of
patients, which Plaintiffs helpfully identified in their
district court brief seeking injunctive relief:
(1)

patients who, in the good faith
professional judgment of the provider,
will likely lose their ability to obtain
an abortion in Tennessee if their
procedures are delayed until after
April 30, 2020;

(2)

patients who, in the good faith
professional judgment of the provider,
will likely be forced to undergo a
lengthier and more complex abortion
procedure, which is only available at
two clinics in Nashville and Memphis,
if their procedures are delayed until
after April 30, 2020; [and]

App. 33a
(3)

patients who, in the good faith
professional judgment of the provider,
will likely be forced to undergo a
two-day procedure—which is only
available at two clinics in Nashville
and Memphis, and which requires at
least three separate visits to the
provider—if their procedures are
delayed until April 30, 2020.

R.232 (Pls.’ Preliminary Inj. Br.) (Page ID #5783).
Consequently, we direct the district court to modify
its injunction so that it enjoins the State from enforcing
EO-25 against Plaintiffs to the extent they provide
procedural abortions to these three categories of
patients. And, to be clear, this second category of
patients includes women who, in the good faith
professional judgment of the provider, will likely be
forced to undergo a D&E procedure instead of an
aspiration procedure if their procedures are delayed
until after April 30, 2020.
To the extent that Plaintiffs work with patients who
can safely delay their procedural abortions past
EO-25’s April 30 expiration date, in a manner
commensurate with the aforementioned criteria,
however, Plaintiffs must comply with EO-25 and delay
those particular procedures. To rule otherwise would be
to grant Plaintiffs a wholesale exemption from the
public health dictates of EO-25, which, per our earlier
discussion, Jacobson cautions against.

App. 34a
III. CONCLUSION
For these reasons, we AFFIRM the district court
order issuing a preliminary injunction but direct the
district court to MODIFY the preliminary injunction in
the manner set forth above. We leave it to the district
court to address any further developments in the first
instance.
_________________
DISSENT
_________________
THAPAR, Circuit Judge, dissenting. Even in
ordinary times, the district court’s injunction in this
case would be deeply flawed. But these are no ordinary
times. In the midst of a once-in-a-century pandemic,
the district court broadly enjoined the State of
Tennessee from enforcing a measure at the heart of the
State’s response. In doing so, the court committed
numerous legal errors, made hardly any factual
findings, issued an overly broad injunction, and
brazenly substituted its own policy views for those of
the elected officials who are actually fighting the
pandemic. All because the district court thought that a
three-week delay for certain abortions might prevent
some unidentified person from having an abortion.
Most cases of judicial aggrandizement have costs. But
in few are the potential costs so great. I would reverse.
I.
Two weeks ago, the Governor of Tennessee issued
an executive order—based on guidance from various
medical organizations—in response to the COVID-19
pandemic. The Governor’s order explains the critical

App. 35a
importance of conserving what’s known as “personal
protective equipment” (e.g., face masks, gloves,
protective clothing) and therefore directs “[a]ll
healthcare professionals and healthcare facilities” in
the State to “postpone surgical and invasive procedures
that are elective and non-urgent.” The order defines
“elective and non-urgent” procedures as those that “are
not required to provide life sustaining treatment, to
prevent death or risk of substantial impairment of a
major bodily function, or to prevent rapid deterioration
or serious adverse consequences to a patient’s physical
condition if the surgical or invasive procedure is not
performed, as reasonably determined by a licensed
medical provider.” The order will expire just after
midnight on April 30, 2020—less than six days from
now and exactly three weeks after it took effect.
Within days of the Governor’s announcement, the
plaintiffs in this case—abortion providers in
Tennessee—moved to “supplement” a five-year old
complaint (six months after trial) to seek a temporary
restraining order or preliminary injunction. The
plaintiffs argued that the executive order prohibits
most “surgical abortions” in the state and thus will
prevent their clients from obtaining an abortion.
A mere four days later, the district court granted
the motion to supplement and entered a preliminary
injunction, enjoining the enforcement of the executive
order as to all surgical abortions in Tennessee. The
court’s analysis of why the plaintiffs were likely to
succeed on the merits consisted of two paragraphs. The
State then appealed. (Despite the breadth of its ruling,
the district court recently denied a stay pending
appeal.)

App. 36a
II.
The State now asks us to stay the district court’s
decision pending appeal and ultimately to reverse the
preliminary injunction. Both requests involve the same
basic factors: (1) who is likely to prevail on the merits;
(2) whether the moving party is likely to suffer
irreparable harm in the interim; (3) what is the balance
of harms; and (4) where does the public interest lie. See
Fowler v. Benson, 924 F.3d 247, 256 (6th Cir. 2019);
Serv. Emps. Int’l Union Local 1 v. Husted, 698 F.3d
341, 343 (6th Cir. 2012) (per curiam). The plaintiffs’
failure to show a likelihood of success on the merits
would itself warrant reversal. See, e.g., Fowler, 924
F.3d at 259–60. But the other factors counsel the same
outcome. And even if the district court was correct to
grant a preliminary injunction (it was not), these same
factors show that the injunction was much broader
than permitted under the law.
Success on the Merits. Start with the plaintiffs’
likelihood of success on the merits. The basic question
is whether the executive order places an “undue
burden” on a woman’s ability to have an abortion.
Planned Parenthood of Se. Pa. v. Casey, 505 U.S. 833,
874 (1992). As the modifier “undue” suggests, not just
any “incidental effect . . . making it more difficult or
more expensive” to have an abortion will do. Id. Rather,
the state regulation must create a “substantial
obstacle” for women seeking an abortion. Id. at 877.
But importantly, we do not consider any burden in
isolation. Instead, we must consider “the burdens a law
imposes on abortion access together with the benefits
those laws confer” and then “weigh[] the asserted
benefits against the burdens.” Whole Woman’s Health

App. 37a
v. Hellerstedt, 136 S. Ct. 2292, 2309, 2310 (2016)
(emphasis added). In short, the plaintiffs must show
that the order imposes a burden and that this burden
outweighs the order’s asserted benefits.
Given this framework, the district court committed
two fundamental errors. First, it failed to make the
necessary factual findings to show that the executive
order imposes a burden on anyone’s rights. Second, the
court failed even to acknowledge the benefits of the
executive order and thus necessarily failed to balance
its speculative burden against these benefits. Either
error would warrant reversal. Together, they certainly
do.
Begin with the burden. The district court failed to
make specific findings about whether the executive
order creates a “substantial obstacle” for women
seeking an abortion. See Casey, 505 U.S. at 874. At
most, the district court pointed out that the executive
order will delay certain abortions for three weeks. But
that doesn’t take the plaintiffs very far. Both the
Supreme Court and our court have upheld laws that
have the effect of delaying abortions for days or even
weeks. See, e.g., Ohio v. Akron Ctr. for Reprod. Health,
497 U.S. 502, 514 (1990) (up to three-week delay);
Cincinnati Women’s Servs., Inc. v. Taft, 468 F.3d 361,
366, 372–74 (6th Cir. 2006) (up to two-week delay).
Indeed, for the last forty years, the Supreme Court has
“repeatedly upheld a wide variety of abortion
regulations that entail some delay in the abortion.”
Garza v. Hargan, 874 F.3d 735, 755–56 (D.C. Cir. 2017)
(en banc) (Kavanaugh, J., dissenting) (collecting cases).
The district court failed to grapple with any of these
precedents. Its silence speaks volumes.

App. 38a
(For its part, the majority tries to distinguish these
cases by saying those delays were outside the state’s
control. It doesn’t offer any support for this distinction.
But more importantly, the distinction seems to assume
that a once-in-a-century pandemic is within a state’s
control.)
To be clear, the district court enjoined a version of
the order that didn’t exist. It acted as if the State had
banned most pre-viability abortions. But that’s just not
the case. Tennessee law generally allows women to
seek an abortion until the twentieth week of their
pregnancy. See Tenn. Code Ann. §§ 39-15-211, -212. So
any woman who was less than seventeen-weeks
pregnant when the order went into effect would still
have time to seek an abortion after the order expires.
The plaintiffs speculate that there might be women
out there who were more than seventeen-weeks
pregnant when the order was issued and who will now
be unable to obtain an abortion in Tennessee. (Or who
otherwise would be unable to obtain an abortion for
some reason.) But speculation usually doesn’t count for
much. See, e.g., Mazurek v. Armstrong, 520 U.S. 968,
972–74 (1997) (per curiam). And there’s no reason it
should have counted for so much here. Make no
mistake—the burden was on the plaintiffs to bring
forward concrete evidence (1) that such women exist,
(2) that they want an abortion, and (3) that they would
be unable to obtain one. See Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 20 (2008). The majority
claims a snippet of evidence supports this concern—an
affidavit that vaguely states that “some patients” will
be prevented from obtaining an abortion under the
executive order. R. 232-5, Pg. ID 5887. But the district

App. 39a
court didn’t make any factual findings on this front.
Nor do the plaintiffs even cite this evidence on appeal.
Not only that. No one—not the plaintiffs, not the
district court, not even the majority— has made any
effort to quantify how this hypothetical pool of women
relates to the broader pool of women affected by the
order—as binding precedent requires. See Gonzales v.
Carhart, 550 U.S. 124, 167–68 (2007); Cincinnati
Women’s Servs., 468 F.3d at 367–68 (explaining that
courts must consider whether a restriction will operate
as a “substantial obstacle” in “a large fraction of the
cases in which the abortion restriction is relevant”
(cleaned up)). In fact, the State points out that the vast
majority of abortions in Tennessee occur before the
seventeenth week of pregnancy. The plaintiffs haven’t
offered any evidence in response. So even if speculation
were the stuff of winning legal claims, plaintiffs still
haven’t made the proper showing.
But we aren’t even done with speculation. The
plaintiffs (and now the majority) say that the Governor
of Tennessee might extend the executive order beyond
the current three-week period. This is a smart
move—it makes a short, finite burden look like an
indefinite one, exaggerating its severity. The problem
is that the Governor hasn’t said he will impose any
restrictions on medical procedures after April 30, which
is when the order in this case expires. If the Governor
issues a new order limiting surgeries beyond that date,
it is possible that he will extend the existing
restrictions—but it is just as likely that the new order
will contain a different and perhaps more tailored set
of restrictions. The majority simply assumes it will be

App. 40a
the former. Based on what? The plaintiffs and majority
point to a statement by the Surgeon General of the
United States about extending certain public-health
measures. But in this country, federal officials don’t
speak on behalf of state leaders. And again, the
plaintiffs haven’t pointed to any evidence about what
the Governor of Tennessee will do. As the crisis facing
our country continues to develop, so too will
government responses. And those who have problems
with those responses must wait until actual and
imminent harms arise. See, e.g., D.T. v. Sumner Cty.
Schs., 942 F.3d 324, 327 (6th Cir. 2019). Federal courts
are not in the business of issuing advisory opinions, let
alone advisory injunctions.
All that is reason enough to reverse. But the district
court also committed another fundamental error: it
entirely failed to balance these purported burdens
against the executive order’s benefits. See Whole
Woman’s Health, 136 S. Ct. at 2309. The court didn’t
even mention the benefits of the order in its “undue
burden” analysis. That flatly contradicts Supreme
Court precedent, which “requires that courts consider
the burdens a law imposes on abortion access together
with the benefits those laws confer.” Id. Count that as
another error warranting reversal.
Perhaps the district court didn’t perform this
balance because it couldn’t do so. How does one balance
a harm to some unspecified number of people? The
district court didn’t tell us and the majority doesn’t
either.
One could stop there. But in fact, Tennessee’s
interests in protecting its citizens from the pandemic

App. 41a
cannot be overstated. All agree that these are far from
ordinary times. Over the past few weeks, our entire
nation has come together to combat a generationdefining crisis. Many have done so at great personal
sacrifice.
In Tennessee, as in so many other states, the
Governor has taken extraordinary steps to fight the
pandemic. He declared a state of emergency, required
all residents to remain at home except in limited
circumstances, and ordered the closure of most
businesses. As part of that effort, he also signed the
generally applicable order at issue here. The
Governor’s order allowed the state to conserve valuable
personal protective equipment for those fighting the
coronavirus. The order protects those who have
undertaken perhaps the greatest personal sacrifice in
protecting the citizens of Tennessee. There’s no reason
to doubt that the Governor took these measures
because “the safety of the general public” demanded it.
Jacobson v. Commonwealth of Massachusetts, 197 U.S.
11, 29 (1905).
Our law has long-protected just these types of
decisions from judicial interference based on purported
violations of substantive due process. In times of
emergency, elected officials need room to do what they
were elected to do—to govern. Sometimes their actions
will incidentally impact a person’s liberty interests. But
the Supreme Court has upheld such actions anyway,
explaining that “[r]eal liberty for all could not exist
under the operation of a principle which recognizes the
right of each individual person to use his own [person
or property], . . . regardless of the injury that may be
done to others.” Id. at 26. And there’s no abortion

App. 42a
exception to this well-settled principle. To the contrary,
the Supreme Court has made clear from the beginning
that the ability to obtain an abortion is neither
“absolute” nor “unlimited.” Roe v. Wade, 410 U.S. 113,
154 (1973) (citing Jacobson, 197 U.S. 11).
Of course, this does not mean that the courts should
rubber stamp emergency measures— far from it. See
Jacobson, 197 U.S. at 28–29. But it does mean that
judges should act with care during such times,
recognizing the limits of our knowledge, institutional
capacity, and lawful authority. See id. at 30–31; cf.
Gonzales, 550 U.S. at 163 (explaining that the Supreme
Court has “given state and federal legislatures wide
discretion to pass legislation in areas where there is
medical and scientific uncertainty”).
Remarkably, the district court failed to
acknowledge—let alone apply—these principles before
it granted the injunction. Nor did it acknowledge the
State’s heightened interests during times of emergency.
Based on its decision, one might think that the
executive order would be unconstitutional no matter
how many lives it could save and no matter how few—if
any—abortions it might prevent. Even the majority
calls this omission “unfortunate.”
In a subsequent order denying a stay pending
appeal, the district court seems to have recognized that
it erred by ignoring the State’s primary legal authority
for its position, Jacobson v. Commonwealth of
Massachusetts, 197 U.S. 11 (1905). But rather than
correct its mistake, the court doubled down, finding the
facts of Jacobson to be readily “distinguishable” from
the facts of this case. In doing so, the district court

App. 43a
overlooked the basic principle of Jacobson: that states
may respond to emergencies in the face of
substantive-due-process rights, so long as they act
reasonably and don’t single out specific rights or
persons for disfavored treatment. See id. at 28–30.
No one claims that the State of Tennessee has
singled out specific rights or persons in its response to
the current pandemic. The executive order in this case
applies to all non-essential medical procedures. And
again, the Governor has issued several other orders
that apply to all persons and that affect every aspect of
daily life across the state.
Nor have the plaintiffs shown that the State has
acted unreasonably in requiring its residents to
postpone non-essential medical procedures for a
three-week period. Just contrast this case with the
facts of Jacobson, where the Supreme Court upheld a
state’s authority to forcibly vaccinate individuals. See
id. at 27–30. If the State can physically invade a
person’s body in response to an emergency, then it
surely may require people to delay certain medical
procedures for the same purpose.
On these points the majority, for its part, is
conclusory: it does little more than assert that the
executive order “is, beyond all question, a plain,
palpable invasion of rights secured by the fundamental
law.” Jacobson, 197 U.S. at 31. Given that plaintiffs
haven’t established a constitutional violation in the
first place, they certainly haven’t done so “beyond all
question.”

App. 44a
The majority also dismisses the State’s interests on
the ground that the executive order has no “real” and
“substantial” relationship to the current pandemic. Id.
That claim is remarkable given that the order follows
recommendations from our nation’s leading
public-health institution. See Centers for Disease
Control and Prevention, Coronavirus Disease 2019
(COVID-19): Strategies to Optimize the Supply of PPE
and Equipment (last visited Apr. 24, 2020), https://www.
cdc.gov/coronavirus/2019-ncov/hcp/ppe-strategy/index
.html (explaining that equipment “shortages are
currently posing a tremendous challenge to the US
healthcare system” and recommending the cancellation
of “elective and non-urgent procedures/appointments”).
Plus, Jacobson clearly tells us that it’s “no part of the
function of a court or a jury to determine which one of
two modes [is] likely to be the most effective for the
protection of the public against disease.” 197 U.S. at
30. The majority doesn’t explain why our court is an
exception to that rule. And the amicus briefs the
majority cites to discredit the State’s rationale for the
executive order “are more formidable by their number
than by their inherent value.” Id. One need only open
a newspaper to appreciate the importance of preserving
medical equipment at this time. So if nothing else,
Jacobson forecloses the plaintiffs’ claim.
Irreparable Harm. Consider next what (if any)
irreparable harm the plaintiffs will suffer without an
injunction. To be clear, the plaintiffs don’t claim that
they themselves will suffer any irreparable harm.
Rather, the plaintiffs assert that the women they
purport to represent will suffer irreparable harm
without an injunction. But cf. Gee v. June Med. Servs.

App. 45a
L.L.C., 140 S. Ct. 35 (2019) (Mem.) (granting certiorari
to consider whether traditional third-party standing
rules apply in abortion cases).
The district court reasoned that the plaintiffs had
established an irreparable injury because it thought
that the executive order would prevent some women in
Tennessee from having an abortion. But again the
district court failed to make any factual findings
showing that the order would prevent any particular
woman from obtaining an abortion. To satisfy the
irreparable-injury requirement, parties must
demonstrate “likely” harm. Winter, 555 U.S. at 22. And
the plaintiffs offer only speculation.
The district court also asserted that delays in the
provision of abortions might irreparably harm some
women by making their abortions more dangerous. But
this argument stands in stark contrast with the claim
that “[a]bortion is one of the safest medical procedures
performed in the United States.” Whole Woman’s
Health, 136 S. Ct. at 2320 (Ginsburg, J., concurring)
(citation omitted). In fact, the plaintiffs themselves say
that “abortion is extremely safe throughout pregnancy.”
Plaintiffs Br. at 5. Is it an irreparable injury for a
medical procedure to be only “extremely safe”? But
again the district court addressed none of these facts on
its way to its destination.
Meanwhile, the executive order allows doctors to
perform an abortion when a woman would suffer
“serious adverse consequences to [her] physical
condition” without the surgery “as reasonably
determined by a licensed medical provider.” The
plaintiffs haven’t made any effort to explain why this

App. 46a
exception (which contains built-in deference to medical
professionals) would not give them the flexibility they
need during this time of national crisis. And again, it
was the plaintiffs’ burden to show that the executive
order (with its exception) causes an irreparable injury.
They failed to do so.
Balance of Harms. Consider also the irreparable
harms created by the district court’s injunction. Of
course, a state always suffers irreparable injury when
it’s wrongfully enjoined from enforcing one of its laws.
See Abbott v. Perez, 138 S. Ct. 2305, 2324 & n.17
(2018); Maryland v. King, 567 U.S. 1301, 1303 (2012)
(Roberts, C.J., in chambers). But that’s far from the
only harm here. The Governor issued the executive
order to preserve critical medical equipment. Every
piece of equipment used for something besides the
pandemic response could cost a life—the life of someone
who acts selflessly to help others in a time of crisis.
Simply put: doctors, nurses, and first responders will
die without proper equipment. And that’s to say
nothing of their family members, whose lives will be
put at risk too. Given the twin risks of exponential
community spread and hospital overload, every
additional infection among first responders represents
a significant threat to public health. It’s hard to
imagine a scenario in which the harm imposed by an
injunction would be greater.
The district court brushed off these concerns, saying
the plaintiffs have already taken measures to reduce
their use of medical equipment during surgical
abortions. The district court apparently thought that
the State would be harmed only if surgical abortions
used an “appreciable amount” of medical equipment.

App. 47a
(The Majority seems to think the same.) But neither
the district court nor the Majority is in any position to
second-guess the Governor’s judgment as to the
amount of equipment that is really necessary to keep
healthcare workers alive.
The district court also asserted that the executive
order would be counterproductive for various policy
reasons. Again the district court’s (and now the
majority’s) willingness to constitutionalize its own
policy judgments—in the midst of a national emergency
no less—is remarkable. If anything has remained
constant over the past hundred years of constitutional
law, it’s that courts aren’t supposed to second guess
policymakers based on their own subjective judgments
of what makes for good policy. See, e.g., Perry v. Perez,
565 U.S. 388, 394 (2012) (per curiam) (noting that
courts must exercise care not to displace “legitimate
state policy judgments with the court’s own
preferences”). All the more when our elected officials
are tasked with making difficult decisions under
conditions of uncertainty, risk, and imperfect
information. See Jacobson, 197 U.S. at 30–31.
The district court and majority also note that some
women might travel to other states to have an abortion
and that this might further aggravate the current
pandemic. But neither the plaintiffs nor the district
court nor the majority have pointed to a single person
who said she would need to travel to another state to
get an abortion. So again this is nothing more than
speculation.
Public Interest. This factor points in the same
direction. See Nken v. Holder, 556 U.S. 418, 435–36

App. 48a
(2009); Winter, 555 U.S. at 24–26. Plainly the public
interest is served by a state’s ability to enforce a
regulation whose purpose and effect is to save the lives
of healthcare workers. The district court and majority
assert that the public interest favors a preliminary
injunction because it’s always in the public interest to
prevent the violation of constitutional rights. See, e.g.,
Dodds v. U.S. Dep’t of Educ., 845 F.3d 217, 222 (6th
Cir. 2016) (per curiam). That reasoning would have
more force if the plaintiffs or district court had shown
that the regulation actually violates any constitutional
rights. But again the majority’s reasoning is only
conclusory.
Scope of the Injunction. Finally, the district court
plainly erred in defining the injunction’s scope.
Preliminary injunctions are an “extraordinary remedy.”
Winter, 555 U.S. at 24. That means courts that
shouldn’t grant them based on speculative harms,
which is what the district court did here; and that “the
scope of relief should be strictly tailored to accomplish
only that which the situation specifically requires.”
Sharpe v. Cureton, 319 F.3d 259, 273 (6th Cir. 2003)
(citation omitted). As the Supreme Court put it, “[i]t is
neither our obligation nor within our traditional
institutional role to resolve questions of
constitutionality with respect to each potential
situation that might develop.” Gonzales, 550 U.S. at
168. And an injunction’s proper scope becomes all the
more important in cases involving government
officials—and especially in cases where, as here,
federal courts enjoin them. See Rizzo v. Goode, 423 U.S.
362, 378–80 (1976); see also Gonzales, 550 U.S. at 168
(“It would indeed be undesirable for [courts] to consider

App. 49a
every conceivable situation which might possibly arise
in the application of complex and comprehensive
legislation.” (cleaned up)).
But again the district court disregarded these
well-settled legal principles. The district court’s
injunction doesn’t just apply to women who might lose
their ability to have an abortion before Tennessee’s
twenty-week deadline; it applies to all women who seek
a surgical abortion—no matter their ability to obtain
an abortion after the order expires. Injunctions should
be aimed with rifle-scope precision. The district court
here used a twelve-gauge.
The majority does acknowledge at least this error
and tries to remedy it on appeal. But in doing so, the
majority doesn’t fix the problem and also creates a
problem of its own: it creates three “classes” of
women—all of them amorphous, and thus likely to sow
confusion going forward. In effect, the majority has
certified a class under Rule 23(b)(2) without any
request to do so or any effort to comply with the
Federal Rules. Nor does the majority explain why the
executive order unduly burdens most of the putative
class. It simply announces that the injunction will
apply to them.
The district court’s errors here are not
unprecedented: Two other circuits have recently
encountered similar district court decisions, and both
circuits promptly corrected them—in one case twice.
See In re Rutledge, No. 20-1791, 2020 WL 1933122 (8th
Cir. Apr. 22, 2020); In re Abbott, No. 20-50296, 2020
WL 1911216 (5th Cir. Apr. 20, 2020); In re Abbott, 954
F.3d 772 (5th Cir. 2020). But cf. Robinson v. Att’y Gen.,

App. 50a
No. 20-11401-B, 2020 WL 1952370, at *4 (11th Cir.
Apr. 23, 2020) (denying a stay pending appeal in “an
atypical case” because, among other things, the state
“concede[d] that the substance of the district court’s
preliminary injunction is consistent with its own . . .
interpretation of [its executive order]”). We should have
done the same.
***
To sum up: the district court granted an injunction
without much effort to apply the relevant law, without
specific factual findings, and without any attempt to
tailor the remedy to the purported constitutional
violation. If that doesn’t count as an abuse of
discretion, I don’t know what would. I respectfully
dissent.

App. 51a
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-5408
[Filed: April 24, 2020]
__________________________________________
ADAMS & BOYLE, P.C. et al.,
)
)
Plaintiffs - Appellees,
)
)
v.
)
)
HERBERT H. SLATERY III et al.
)
)
Defendants - Appellants.
)
__________________________________________)
Before: MOORE, WHITE, and THAPAR, Circuit
Judges.
JUDGMENT
On Appeal from the United States District Court
for the Middle District of Tennessee at Nashville.
THIS CAUSE was submitted to the court on the
motion and reply of Appellants, the response of
Appellees, and the briefs of Amici Curiae.
IN CONSIDERATION THEREOF, it is ORDERED
that the district court’s order issuing a preliminary
injunction is AFFIRMED with the MODIFICATION
set forth in the opinion of this court.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 52a

APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Civil Action No: 3:15-cv-00705
HON. BERNARD A. FRIEDMAN
[Filed: April 17, 2020]
__________________________________________
ADAMS & BOYLE, P.C., et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
HERBERT H. SLATERY, III, et al.,
)
)
Defendants.
)
__________________________________________)
OPINION AND ORDER GRANTING
PLAINTIFFS’ MOTION FOR A
PRELIMINARY INJUNCTION
This matter is presently before the Court on the
motion to file a supplemental complaint [docket entry
229] and the motion for a temporary restraining order
(“TRO”) and/or preliminary injunction [docket entry
231] filed by plaintiffs and proposed plaintiffs
(collectively “plaintiffs”). Defendants and proposed
defendants (collectively “defendants”) have responded

App. 53a
to both motions, and plaintiffs have replied. On April
17, 2020, at 11:00 a.m., the Court held a ninety-minute
telephonic hearing with counsel for both sides, and oral
argument was heard. For the reasons stated below, the
Court shall grant plaintiffs’ motion to file a
supplemental complaint, and it shall grant plaintiffs’
motion for a TRO and/or preliminary injunction to the
extent plaintiffs seek a preliminary injunction
enjoining the enforcement of Tennessee Executive
Order 25 (“EO-25”) as applied to procedural abortions.1

1

Procedural abortions are one type of abortion. Plaintiffs explain
that
[t]here are two methods of abortion care available in
Tennessee: medication abortion or in-office procedural
abortion (also referred to as “surgical abortion”). Tr. Vol.
2, 57:18-22 (Young); Looney Decl. ¶ 11. For a medication
abortion, the patient takes mifepristone in the clinic and
then, 24 to 48 hours later, takes misoprostol at a location
of her choosing, typically at home. Looney Decl. ¶ 11. The
pregnancy is then passed in a process similar to
miscarriage. Id.; Tr. Vol. 1, 39:15-11 (Wallett). The use of
mifepristone in combination with misoprostol is safe and
effective to terminate pregnancies up to 11 weeks LMP
[last menstrual period] (or 77 days). Looney Decl. ¶ 12.
Although procedural abortion is sometimes referred to as
“surgical abortion,” it is not what is commonly understood
to be surgery, as a procedural abortion involves no incision
or general anesthesia. Looney Decl. ¶ 14. In the majority
of cases, a procedural abortion is performed using the
“aspiration” technique, which involves the use of gentle
suction to empty the uterus, typically takes about 5-10
minutes, and may at times involve local anesthesia or
conscious sedation. Id.; Tr. Vol. 1, 40:12-20 (Wallett); Tr.
Vol. 2, 58:9-59:1 (Young). Starting at 14-16 weeks,
physicians typically use the dilation and evacuation

App. 54a
Background
Plaintiffs are providers of reproductive healthcare,
including abortion services, in Tennessee. Plaintiffs
challenge Tennessee Senate Bill 1222, Tenn. Code Ann.
§ 39-15-202(a)-(h), requiring women seeking an
abortion to receive certain information beforehand in
person from the attending physician performing the
abortion, or a referring physician, and to then wait at
least forty-eight hours after receiving the information
before undergoing the procedure. Plaintiffs allege that
the statute’s “forty-eight-hour delay requirement”
unduly burdens their patients’ right to obtain an
abortion. Plaintiffs, suing on their own behalf and also
on behalf of their patients, assert due process and
equal protection claims under the Fourteenth
Amendment. In September 2019, the Court conducted
a week-long bench trial in this matter.
On March 23, 2020, Governor William Lee issued
Tennessee Executive Order 18, entitled “An Order to
Reduce the Spread of COVID-19 by Limiting

(“D&E”) technique, which requires additional skills and
equipment to perform, and takes longer, including longer
time spent by the patient in the recovery room. Looney
Decl. ¶ 14; Tr. Vol. 1, 40:21-8 (Wallett). Starting around 18
weeks LMP, procedural abortion may be performed as a
two-day procedure because a patient receives medications
to dilate her cervix the day before the procedure itself.
Looney Decl. ¶ 14. For some patients, procedural abortion
is safer or medically indicated over medication abortion,
such as for patients at increased risk of bleeding. Id. ¶ 13.
Pls.’ Br. in Support of Mot. for TRO and/or Prelim. Inj. at 7-8.

App. 55a
Non-Emergency Healthcare Procedures.” This order
provides in part:
2. All hospitals and surgical outpatient facilities
in the State of Tennessee shall not perform
non-essential procedures, which includes any
medical procedure that is not necessary to
address a medical emergency or to preserve the
health and safety of a patient, as determined by
a licensed medical provider. . . . Medical
procedures excluded from postponement include
. . . pregnancy-related visits and procedures,
including labor and delivery . . . .
***
5. This Order shall be effective and enforceable
at 12:01 a.m., Central Daylight Time, on March
24, 2020, and shall remain in effect until 12:01
a.m., Central Daylight Time, on April 13, 2020,
at which time the suspension of any state laws
and rules and the other provisions of this Order
shall cease and be of no further force or effect.
On April 8, 2020, Governor Lee issued Tennessee
Executive Order 25, entitled “An Order to Reduce the
Spread of COVID-19 by Limiting Non-Emergency
Healthcare Procedures.” This order provides in part:
2. All healthcare professionals and healthcare
facilities in the State of Tennessee shall
postpone surgical and invasive procedures that
are elective and non-urgent. Elective and
non-urgent procedures are those procedures that
can be delayed until the expiration of this Order
because they are not required to provide life

App. 56a
sustaining treatment, to prevent death or risk of
substantial impairment of a major bodily
function, or to prevent rapid deterioration or
serious adverse consequences to a patient’s
physical condition if the surgical or invasive
procedure is not performed, as reasonably
determined by a licensed medical provider.
3. In order to conserve personal protective
equipment [(“PPE”)], healthcare providers and
facilities in Tennessee must limit attendance to
essential personnel in the rooms where surgeries
and invasive procedures are being performed.
4. Non-hospital healthcare providers impacted
by this Order are requested and encouraged to
provide necessary personal protective equipment
in their possession and not required for the
emergency care exempted in the Order,
including, but not limited to, medical gowns,
N95 masks, surgical masks, TYVEK suits, boot
covers, gloves, and/or eye protection to the
Tennessee Emergency Management Agency by
delivering such equipment to the nearest open
Tennessee National Guard Armory listed on the
TEMA website (www.tn.gov/tema) between the
hours of 9:00 a.m. and 2:00 p.m.
***
6. This Order shall take effect at 12:01 a.m.,
Central Daylight Time, on April 9, 2020, and
shall remain in effect until 12:01 a.m., Central
Daylight Time, on April 30, 2020, at which time
the suspension of any state laws and rules and

App. 57a
the other provisions of this Order shall cease
and be of no further force or effect.
7. Upon becoming effective, this Order amends
and supersedes the provisions of Executive
Order No. 18, dated March 23, 2020.
An April 10, 2020, letter signed by defendant State
of Tennessee Department of Health Commissioner Lisa
Piercey that is addressed to “Health Care Providers”
states that
[t]he intent of Executive Order 25 is to protect
the health care providers, staff, patients, and
the community from the transmission of
COVID-19 and prevent the unnecessary use of
the PPE resources that are in extremely short
supply, especially N95 masks. Specifically, the
Executive Order addresses the following:
• Helps ensure that PPE is preserved, and
community spread through close medical
interaction is limited during the
upcoming weeks in which cases/
hospitalizations are expected to increase;
• Expands Executive Order 18 to more
specifically cover all procedures that are
elective and non-urgent and can be
delayed until after the Order without
risking serious adverse consequences to a
patient; and
• Limits attendance at surgeries and
invasive procedures to essential personnel

App. 58a
to preserve PPE to the greatest extent
possible[.]
Pls.’ Mot. to File Suppl. Compl. Ex. B. The letter
advises that the “failure to comply [with EO-25] is a
Class A misdemeanor and may result in possible
disciplinary action by your respective board.” Id.
On April 13, 2020, plaintiffs filed a motion to file a
supplemental complaint and a motion for a TRO and/or
preliminary injunction [docket entries 229 and 231]. As
noted above, on April 17, 2020, the Court held a
ninety-minute telephonic hearing on these motions in
which both sides presented extensive oral argument.
Motion to File a Supplemental Complaint
Plaintiffs seek leave to file a supplemental
complaint, a copy of which is attached to their motion
as Exhibit 1, pursuant to Fed. R. Civ. P. 15(d). The
proposed supplemental complaint alleges that EO-25,
as applied to procedural abortions, violates plaintiffs’
patients’ substantive due process rights under the
Fourteenth Amendment. Plaintiffs assert this
constitutional challenge on their own behalf and on
behalf of their patients.2 The proposed supplemental
complaint names two new plaintiffs – Knoxville Center
for Reproductive Health and Dr. Kimberly Looney
(Chief Medical Officer of plaintiff Planned Parenthood
2

“In [third-party standing] cases, the Supreme Court [has] held
that abortion providers have standing to bring due process
challenges on behalf of their patients.” Planned Parenthood of
Greater Ohio v. Hodges, 917 F.3d 908, 914 (6th Cir. 2019) (citing
Singleton v. Wulff, 428 U.S. 106, 118 (1976) (plurality); Diamond
v. Charles, 476 U.S. 54, 65-66 (1986)).

App. 59a
of Tennessee and North Mississippi) – and two new
defendants – Governor Lee and Dr. Rene Saunders
(Chair of the Board of Licensing Health Care
Facilities). Plaintiffs indicate that one of the proposed
plaintiffs “previously appeared as a plaintiff in the
action” and that the proposed defendants “will be
represented by the same counsel as the other
Defendants and share substantially the same interests
in this matter as the other Defendants.” Pls.’ Br. in
Support of Mot. to File Suppl. Compl. at 9; Pls.’ Reply
in Support of Mot. to File Suppl. Compl. at 5.
Fed. R. Civ. P. 15(d) provides in relevant part: “On
motion and reasonable notice, the court may, on just
terms, permit a party to serve a supplemental pleading
setting out any transaction, occurrence, or event that
happened after the date of the pleading to be
supplemented.” “A supplemental pleading may include
new facts, new claims, new defenses, and new parties.”
Brian A. v. Bredesen, No. 3:00-0445, 2009 WL 4730352,
at *2 (M.D. Tenn. Dec. 4, 2009) (citing Stewart v.
Shelby Tissue, Inc., 189 F.R.D. 357, 361 (W.D. Tenn.
1999)). “Generally, [a motion to supplement under Rule
15(d)] can be brought at any time the action is before
the trial court.” Id. at *1 (citing Stewart, 189 F.R.D. at
362). “The granting of a motion to file a supplemental
pleading is within the discretion of the trial court and,
as a general rule, applications for leave to file a
supplemental pleading are normally granted.” Id.
(Stewart, 189 F.R.D. at 362); see also Bostic v. Biggs,
No. 3:14-1068, 2016 WL 4177094, at *1 (M.D. Tenn.
Aug. 8, 2016) (“[T]he granting or refusing of leave to
file a supplemental pleading rests in the discretion of
the trial court.” (citing Schuckman v. Rubenstein, 164

App. 60a
F.2d 952 (6th Cir. 1947))), R&R adopted, No.
3:14-CV-01068, 2016 WL 8730550 (M.D. Tenn. Sept. 9,
2016).
The Court finds that allowing plaintiffs to file a
supplemental complaint will promote judicial economy.
The Court is familiar with the subject matter of the
proposed supplemental complaint from having presided
over the September 2019 trial. The second amended
complaint and the proposed supplemental complaint
contain overlapping factual and legal issues, and they
involve overlapping parties and counsel. The Court has
considered defendants’ arguments with respect to
prejudice and finds them unpersuasive. A
supplemental complaint will not prejudice defendants,
who have been given notice and have had an
opportunity to respond, and the gains in terms of
judicial economy outweigh any possible prejudice to
them. Therefore, the Court shall grant plaintiffs’
motion to file a supplemental complaint.
Motion for a Temporary Restraining Order and/or
Preliminary Injunction
Plaintiffs seek the issuance of a TRO and/or
preliminary injunction pursuant to Fed. Civ. P. 65(b) to
enjoin the enforcement of EO-25 insofar as that order
prohibits all procedural abortions except those
necessary “to provide life sustaining treatment, to
prevent death or risk of substantial impairment of a
major bodily function, or to prevent rapid deterioration
or serious adverse consequences to a patient’s physical
condition if the surgical or invasive procedure is not
performed, as reasonably determined by a licensed
medical provider.” EO-25 ¶ 2.

App. 61a
As this Court has noted, a preliminary injunction is
“extraordinary relief.” I Love Juice Bar Franchising,
LLC v. ILJB Charlotte Juice, LLC, No. 3:19-CV-00981,
2019 WL 6050283, at *3 (M.D. Tenn. Nov. 15, 2019)
(citing Detroit Newspaper Publishers Ass’n v. Detroit
Typographical Union No. 18, Int’l Typographical
Union, 471 F.2d 872, 876 (6th Cir. 1972)). In
determining whether to issue a TRO or a preliminary
injunction the Court must weigh the following factors:
“(1) whether the movant has a strong likelihood of
success on the merits; (2) whether the movant would
suffer irreparable injury absent the injunction;
(3) whether the injunction would cause substantial
harm to others; and (4) whether the public interest
would be served by the issuance of an injunction.” Hall
v. Edgewood Partners Ins. Ctr., Inc., 878 F.3d 524, 527
(6th Cir. 2017) (internal citations omitted). These “are
factors to be balanced, not prerequisites that must be
met,” and “[n]o single factor will be determinative as to
the appropriateness of equitable relief.” Six Clinics
Holding Corp., II v. Cafcomp Sys., Inc., 119 F.3d 393,
400 (6th Cir. 1997) (citing Washington v. Reno, 35 F.3d
1093, 1099 (6th Cir. 1994), and In re DeLorean Motor
Co., 755 F.2d 1223, 1229 (6th Cir. 1985)). However,
“[w]hen a party seeks a preliminary injunction on the
basis of a potential constitutional violation, ‘the
likelihood of success on the merits often will be the
determinative factor.’” Obama for Am. v. Husted, 697
F.3d 423, 436 (6th Cir. 2012) (quoting Jones v. Caruso,
569 F.3d 258, 265 (6th Cir. 2009)).
Having read all of the parties’ written submissions
and considered all of their arguments carefully, and
being mindful of the fact that such relief is

App. 62a
extraordinary, the Court finds that all four factors
weigh in favor of granting a preliminary injunction.3 As
to plaintiffs’ likelihood of success on the merits of their
constitutional challenge to EO-25,
[t]he fundamental right to privacy contained in
the Due Process Clause of the Fourteenth
Amendment includes the right to choose to have
an abortion, subject to certain limitations. See
Roe v. Wade, 410 U.S. 113, 153, 93 S.Ct. 705, 35
L.Ed.2d 147 (1973); Planned Parenthood of
Southeastern Pa. v. Casey, 505 U.S. 833, 869,
112 S.Ct. 2791, 120 L.Ed.2d 674 (1992). Casey
confirmed that a woman has the right to choose
to have an abortion prior to viability and to
obtain an abortion without “undue interference
from the State.” 505 U.S. at 846, 112 S.Ct. 2791.
Women’s Med. Prof’l Corp. v. Baird, 438 F.3d 595, 602
(6th Cir. 2006). A state regulation is constitutionally
invalid if it places an “undue burden” on a woman’s
right to decide to have an abortion. Whole Woman’s
Health v. Hellerstedt, 136 S. Ct. 2292, 2299 (2016)
(citing Casey, 505 U.S. at 878). An undue burden exists
3

The Court notes that the same issue has been decided by five
other courts, all of which issued a TRO in those cases at plaintiffs’
request. See Robinson v. Marshall, No. 2:19-cv-00365 (M.D. Ala.
Mar. 30, 2020); Preterm-Cleveland v. Att’y Gen. of Ohio, No.
1:19-cv-00360 (S.D. Ohio Mar. 30, 2020); Planned Parenthood Ctr.
for Choice v. Abbott, No. A-20-CV-323-LY, 2020 WL 1815587 (W.D.
Tex. Apr. 9, 2020); S. Wind Women’s Ctr. LLC v. Stitt, No.
CIV-20-277-G, 2020 WL 1677094 (W.D. Okla. Apr. 6, 2020), appeal
dismissed, No. 20-6045, 2020 WL 1860683 (10th Cir. Apr. 13,
2020); Little Rock Family Planning Servs. v. Rutledge, No.
4:19-cv-00449-KGB (E.D. Ark. Apr. 14, 2020).

App. 63a
if the “state regulation has the purpose or effect of
placing a substantial obstacle in the path of a woman
seeking an abortion of a nonviable fetus.” Casey, 505
U.S. at 877.
In the present case, plaintiffs have shown that they
are likely to succeed on the merits of their claim
because the enforcement of EO-25 creates an undue
burden on the right of women in Tennessee to choose to
have a pre-viability abortion. EO-25 has caused
plaintiffs to cancel all procedural abortions to avoid
risking criminal and other penalties. Looney Decl. ¶¶ 5,
43; Terrell Decl. ¶¶ 36-37; Rovetti Decl. ¶¶ 5, 14. As a
result, since EO-25 took effect on April 9, procedural
abortions have been unavailable in Tennessee for
women who are more than eleven weeks pregnant, as
measured from the first day of their last menstrual
period (“LMP”),4 and for women of any gestational age
for whom a medication abortion is contraindicated.5
Procedural abortions made up approximately fifty to
sixty percent of the abortions that plaintiffs performed
in 2019 and/or 2020. Looney Decl. ¶¶ 16-17 (2,390
procedural abortions out of 4,742 abortions performed
in 2019; 917 procedural abortions out of 1,700 abortions

4

Medication abortions are available in Tennessee through eleven
weeks, zero days LMP. Looney Decl. ¶¶ 2, 15; Terrell Decl. ¶ 9.
“After 11 weeks, 0 days LMP, patients will generally need a
procedural abortion.” Looney Decl. ¶ 13.

5

“[S]ome patients with pregnancies less than 11 weeks, 0 days
LMP will have a procedural abortion for various reasons, including
because of an underlying medical condition, such as an increased
risk of bleeding, that makes this the safer option.” Looney Decl.
¶ 13 (footnote omitted).

App. 64a
performed in January to March 2020); Terrell Decl.
¶ 10 (1,654 procedural abortions out of 2,792 abortions
performed in 2019); Rovetti ¶ 15 (827 procedural
abortions out of 1,366 abortions performed in 2019).
EO-25 currently expires on April 30, but plaintiffs have
provided evidence that the order is likely to be renewed
or extended beyond that date. Pls.’ Br. in Support of
Mot. for TRO and/or Prelim. Inj. at 4 n.5, 11, 23-24;
Looney Decl. ¶ 58; Terrell Decl. ¶¶ 15, 45; Rovetti Decl.
¶¶ 21-22; Pls.’ Reply in Support of Mot. for TRO and/or
Prelim. Inj. at 1. Defendants do not dispute the
likelihood of a renewal or extension of EO-25, and they
acknowledge that Tennessee’s COVID-19 infections
“have not yet reached their peak.” Defs.’ Resp. to Mot.
for TRO and/or Prelim. Inj. at 8, 21. Therefore, the
Court finds that, for purposes of seeking a preliminary
injunction, plaintiffs have shown that EO-25 “plac[es]
a substantial obstacle in the path of a woman seeking
an abortion of a nonviable fetus.” Casey, 505 U.S. at
877.
Plaintiffs have also shown that they would suffer
irreparable harm if defendants are not enjoined from
enforcing EO-25 as it relates to procedural abortions.
Plaintiffs argue that EO-25, as applied to procedural
abortions, “prevents Tennessee patients from
exercising their fundamental constitutional right to
terminate a pregnancy” guaranteed by the Fourteenth
Amendment. Pls.’ Br. in Support of Mot. for TRO
and/or Prelim. Inj. at 30. Plaintiffs also argue that
“[f]orcing patients to forgo abortion care and remain
pregnant against their will inflicts serious physical,
emotional, and psychological consequences that alone
constitute irreparable harm.” Id. at 31. “Courts

App. 65a
have . . . held that a plaintiff can demonstrate that a
denial of an injunction will cause irreparable harm if
the claim is based upon a violation of the plaintiff’s
constitutional rights.” Overstreet v. Lexington-Fayette
Urban Cty. Gov’t, 305 F.3d 566, 578 (6th Cir. 2002)
(citing Connection Distrib. Co. v. Reno, 154 F.3d 281,
288 (6th Cir. 1998); Covino v. Patrissi, 967 F.2d 73, 77
(2d Cir. 1992); McDonell v. Hunter, 746 F.2d 785, 787
(8th Cir. 1984)). “[T]o establish irreparable harm based
upon the denial of a constitutional right, the plaintiff
must first show a substantial likelihood of success on
the underlying constitutional claim.” Bokhari v. Metro.
Gov’t of Nashville & Davidson Cty., No. 3:11-00088,
2012 WL 1165907, at *8 (M.D. Tenn. Apr. 9, 2012)
(citing Overstreet, 305 F.3d at 578). As noted above,
plaintiffs have made this required showing of success
on their substantive due process claim. Moreover,
abortion is a time-sensitive procedure. See Looney Decl.
¶¶ 20, 43. Delaying a woman’s access to abortion even
by a matter of days can result in her having to undergo
a lengthier and more complex procedure that involves
progressively greater health risks, see id.; Rovetti Decl.
¶ 22, or can result in her losing the right to obtain an
abortion altogether. Therefore, plaintiffs have
demonstrated that enforcement of EO-25 causes them
irreparable harm.
In terms of balancing the harm to others, plaintiffs
argue convincingly that the irreparable harm they
would suffer without injunctive relief, which includes
violation of their constitutional rights, “vastly
outweigh[s]” any “temporary reduction of PPE”
resulting from the enforcement of EO-25. Pls.’ Br. in
Support of Mot. for TRO and/or Prelim. Inj. at 32.

App. 66a
Plaintiffs claim that injunctive relief “will simply
preserve ‘the status quo that has been in place for more
than 40 years since Roe was decided, and some 25
years since Casey followed.’” Id. (quoting
Preterm-Cleveland v. Yost, 394 F. Supp. 3d 796, 803
(S.D. Ohio 2019)). Defendants argue that granting the
requested relief would “irreparably harm Tennessee’s
authority to protect the safety and health of its
citizens” and that it would “also harm the public by
hindering the State’s otherwise comprehensive efforts
to respond to the COVID-19 pandemic.” Defs.’ Resp. to
Mot. for TRO and/or Prelim. Inj. at 21. But plaintiffs
have provided evidence, which the Court accepts as
accurate, that they have implemented sanitation
procedures, as well as procedures to minimize the use
of PPE, that they do not use N95 masks or other
hospital resources needed to respond to COVID-19, and
that a procedural abortion uses less PPE and involves
significantly less patient interaction than carrying a
pregnancy to term and giving birth. In addition,
plaintiffs state that women may travel out-of-state to
obtain an abortion while EO-25 is in effect, risking
infection of COVID-19 and transmission to others when
they return to Tennessee. See Rovetti Decl. ¶ 17
(stating that four patients with appointments on the
day EO-25 went into effect were referred to an abortion
clinic in Atlanta because the patients were not eligible
for medication abortion care). While the stated goal of
EO-25 to preserve PPE is unquestionably laudable,
defendants have presented no evidence that any
appreciable amount of PPE would actually be
preserved if EO-25 is applied to procedural abortions.
Plaintiffs, on the other hand, offered convincing

App. 67a
evidence demonstrating the contrary. The balancing of
harms therefore favors plaintiffs.
The fourth factor the Court must consider in
deciding whether to issue a preliminary injunction also
favors plaintiffs because “it is always in the public
interest to prevent violation of a party’s constitutional
rights.” Thomas v. Schroer, 116 F. Supp. 3d 869, 879
(W.D. Tenn. 2015) (citing Deja Vu of Nashville, Inc. v.
Metro. Gov’t of Nashville & Davidson Cty., Tenn., 274
F.3d 377, 400 (6th Cir. 2001)); see also Dodds v. U.S.
Dep’t of Educ., 845 F.3d 217, 222 (6th Cir. 2016)
(stating that protection of constitutional rights “is
always in the public interest”).
In seeking injunctive relief, plaintiffs ask that the
Court waive the bond requirement of Fed. R. Civ. P.
65(c). Defendants do not oppose this request. Rule 65(c)
states that “[t]he court may issue a preliminary
injunction . . . only if the movant gives security in an
amount that the court considers proper to pay the costs
and damages sustained by any party found to have
been wrongfully enjoined or restrained.” However, “the
rule in our circuit has long been that the district court
possesses discretion over whether to require the
posting of security,” Moltan Co. v. Eagle-Picher Indus.,
Inc., 55 F.3d 1171, 1176 (6th Cir. 1995) (internal
citation omitted), and “a court has no mandatory duty
to impose a bond as a condition for issuance of
injunctive relief.” Stooksbury v. Ross, No. 3:09-CV-498,
2012 WL 12841901, at *6 (E.D. Tenn. Aug. 1, 2012)
(citing NACCO Materials Handling Grp., Inc. v. Toyota
Materials Handling USA, Inc., 246 F. App’x 929, 952
(6th Cir. 2007)). “When determining whether to require
the party seeking an injunction to give security, courts

App. 68a
have considered factors such as the strength of the
movant’s case and whether a strong public interest is
present.” I Love Juice Bar Franchising, LLC, 2019 WL
6050283, at *14 (citing Moltan Co., 55 F.3d at 1176). In
light of these factors, the Court declines to impose a
bond requirement in this case.
Conclusion
Accordingly,

IT IS ORDERED that plaintiffs’ motion to file a
supplemental complaint is granted. Within seven days
of the date of this order, plaintiffs shall file a version of
the supplemental complaint that is identical to the one
attached to plaintiffs’ motion as Exhibit 1.
IT IS FURTHER ORDERED that plaintiffs’ motion
for a TRO and/or preliminary injunction is granted to
the following extent: Defendants are hereby
immediately enjoined from enforcing EO-25 as applied
to procedural abortions.

s/Bernard A. Friedman
BERNARD A. FRIEDMAN
SENIOR UNITED STATES DISTRICT JUDGE
SITTING BY SPECIAL DESIGNATION
Dated:

April 17, 2020
Detroit, Michigan

App. 69a

APPENDIX C
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Civil Action No: 3:15-cv-00705
HON. BERNARD A. FRIEDMAN
[Filed: April 21, 2020]
__________________________________________
ADAMS & BOYLE, P.C., et al.,
)
)
Plaintiffs,
)
)
vs.
)
)
HERBERT H. SLATERY, III, et al.,
)
)
Defendants.
)
__________________________________________)
OPINION AND ORDER DENYING
DEFENDANTS’ MOTION FOR A STAY
PENDING APPEAL
This matter is presently before the Court on
defendants’ motion for a stay pending appeal [docket
entry 246]. Plaintiffs have filed a response in
opposition, and defendants have filed a reply. Pursuant
to M.D. Tenn. LR 78.01, the Court shall decide this
motion without a hearing. For the reasons explained
below, the Court shall deny defendants’ motion.

App. 70a
Plaintiffs are reproductive healthcare providers
who, on their own behalf and on behalf of their
patients, assert a constitutional challenge to a
Tennessee statute that requires women seeking an
abortion to receive certain information in person at
least forty-eight hours before undergoing the
procedure. On April 8, 2020, Governor William Lee
issued Tennessee Executive Order 25 (“EO-25”),
requiring that, between April 9 and April 30,
healthcare providers “postpone surgical and invasive
procedures that are elective and non-urgent,” as
defined by the order. EO-25 ¶ 2. The stated purposes of
EO-25 are to reduce the spread of COVID-19 and to
conserve personal protective equipment (“PPE”). On
April 13, plaintiffs filed a motion to file a supplemental
complaint alleging that EO-25, as applied to procedural
abortions, violates plaintiffs’ patients’ substantive due
process rights under the Fourteenth Amendment.
Plaintiffs simultaneously filed a motion for a TRO
and/or preliminary injunction to enjoin enforcement of
EO-25 as it applies to procedural abortions.
On April 17, the Court heard extensive oral
argument from the parties during a ninety-minute
telephonic hearing, after which the Court issued an
opinion and order granting plaintiffs’ motion to file a
supplemental complaint and granting plaintiffs’ motion
for a TRO and/or preliminary injunction “to the
following extent: Defendants are hereby immediately
enjoined from enforcing EO-25 as applied to procedural
abortions.” Op. & Order Granting Pls.’ Mot. for Prelim.
Inj. at 12-13. Shortly thereafter, defendants filed a
notice of appeal and the instant motion to stay the
injunction pending appeal.

App. 71a
A motion for a stay pending appeal is governed by
Fed. R. Civ. P. 62(c). The Sixth Circuit has stated:
In deciding whether to grant a stay of a
preliminary injunction, “we consider (1) the
likelihood that the party seeking the stay will
prevail on the merits of the appeal; (2) the
likelihood that the moving party will be
irreparably harmed absent a stay; (3) the
prospect that others will be harmed if the court
grants the stay; and (4) the public interest in
granting the stay.” Coalition to Defend
Affirmative Action v. Granholm, 473 F.3d 237,
244 (6th Cir. 2006) (internal quotation marks
omitted). . . . The Defendants as movants for the
stay have the burden of persuasion. See Nken v.
Holder, 556 U.S. 418, 433-34, 129 S.Ct. 1749,
173 L.Ed.2d 550 (2009).
Graveline v. Johnson, 747 F. App’x 408, 412 (6th Cir.
2018). “All four factors are not prerequisites but are
interconnected considerations that must be balanced
together.” Coal. to Defend Affirmative Action v.
Granholm, 473 F.3d 237, 244 (6th Cir. 2006).
“[B]ecause the burden of meeting the standard is a
heavy one, more commonly stay requests will be found
not to meet this standard and will be denied.” 11
CHARLES ALAN WRIGHT, ARTHUR R. MILLER & MARY
KAY KANE, FEDERAL PRACTICE AND PROCEDURE § 2904
(3d ed. 2012) (footnotes omitted).
Regarding the first factor, defendants have not
shown that they are likely to prevail on the merits.
Defendants argue that “[t]he broad relief afforded by
this Court’s Order cannot be squared with the Supreme

App. 72a
Court’s decision in Jacobson v. Commonwealth of
Massachusetts, 197 U.S. 11 (1905)[,]” in which “the
Supreme Court explained that the States have
wide-ranging authority to ‘enact quarantine laws and
health laws of every description,’ even where those
laws may curtail constitutional rights. See id. at 26,
31.” Defs.’ Mot. for Stay Pending Appeal at 2.
In Jacobson, the Supreme Court rejected an
individual’s constitutional challenge to a state’s
compulsory vaccination law enacted when smallpox
was “prevalent and increasing.” Jacobson, 197 U.S. at
28. The Court recognized the “police power” of states
to enact “reasonable regulations established directly by
legislative enactment as will protect the public health
and the public safety.”1 Id. at 25. But the Court also
recognized the possibility that
it might be that an acknowledged power of a
local community to protect itself against an
epidemic threatening the safety of all might be
exercised in particular circumstances and in
reference to particular persons in such an
arbitrary, unreasonable manner, or might go so
far beyond what was reasonably required for the
safety of the public, as to authorize or compel

1

The Court notes that the “police power” acknowledged by the
Supreme Court in Jacobson is for the state’s enactment of
“reasonable regulations” to protect public health and public safety.
Jacobson, 197 U.S. at 25 (emphasis added). Defendants have not
demonstrated the reasonableness of EO-25.

App. 73a
the courts to interfere for the protection of such
persons.
Id. at 28. Further,
[i]f there is any such power in the judiciary to
review legislative action in respect of a matter
affecting the general welfare, it can only be
when that which the legislature has done comes
within the rule that, if a statute purporting to
have been enacted to protect the public health,
the public morals, or the public safety, has no
real or substantial relation to those objects, or is,
beyond all question, a plain, palpable invasion of
rights secured by the fundamental law, it is the
duty of the courts to so adjudge, and thereby
give effect to the Constitution.
Id. at 31 (emphasis added). The Court in Jacobson
affirmed plaintiff’s criminal conviction because “the
[vaccination] statute in question is a health law,
enacted in a reasonable and proper exercise of the
[state’s] police power.” Id. at 35. The Court found that
the statute had a “real or substantial relation to the
protection of the public health and the public safety,”
id. at 31; and the Court further found that the statute
did not “invade[] any right secured by the Federal
Constitution.” Id. at 38.
Defendants fault the Court for not mentioning
Jacobson in its opinion. However, EO-25 is easily
distinguishable from the statute at issue in Jacobson,
and the Court considered Jacobson and its limitations
on judicial intervention without finding it necessary to
reference this case by name. In its April 17 decision,

App. 74a
the Court determined that EO-25, as applied to
procedural abortions, did not have a “real or
substantial relation” to protecting public health or
public safety. The Court noted plaintiffs’ evidence that
enforcement of EO-25 would result in increased patient
interaction and greater risk of infection and spreading
of COVID-19. Op. & Order Granting Pls.’ Mot. for
Prelim. Inj. at 11. The Court also noted that defendants
had “presented no evidence that any appreciable
amount of PPE would actually be preserved if EO-25 is
applied to procedural abortions” despite plaintiffs
having “offered convincing evidence demonstrating the
contrary.” Id. In addition, the Court found that EO-25
placed an undue burden on the right of women in
Tennessee to choose to have a pre-viability abortion, a
constitutional right recognized by the Supreme Court
since Roe v. Wade, 410 U.S. 113 (1973). Id. at 8-9.
Because the Court determined, based on the record
before it at the preliminary injunction stage, that
EO-25 did not have a “real or substantial relation” to
protecting public health or public safety and was
invading plaintiffs’ fundamental rights, it was “the
duty of the [C]ourt[] to so adjudge, and thereby give
effect to the Constitution.” Jacobson, 197 U.S. at 31.
Therefore, defendants have not shown that the Court’s
decision to issue a preliminary injunction in this
matter is in any way inconsistent with Jacobson. And
for the reasons set forth in the Court’s April 17 opinion,
the Court remains firmly convinced that defendants
are highly unlikely to prevail on the merits.
Regarding the second factor, defendants argue that
they and the citizens of Tennessee will be irreparably
harmed without a stay because “[i]t is well-settled that

App. 75a
the wrongful enjoining of a valid state action always
qualifies as irreparable harm.” Defs.’ Mot. for Stay
Pending Appeal at 3. Defendants characterize EO-25 as
a “valid state action” because it “is a good-faith effort to
slow the spread of COVID-19 and is well within the
Governor’s power to issue in a time of crisis.” Id. While
the Governor certainly has the power – indeed, the
obligation – to take reasonable measures to safeguard
public health, EO-25 is not reasonable, and not a “valid
state action,” as it relates to procedural abortions
because it does not appreciably advance either of its
stated goals, i.e., to slow the spread of COVID-19 or
conserve PPE. There is no irreparable harm in
enjoining the enforcement of an ineffectual executive
order that accomplishes nothing except to interfere, on
a broad scale, with the exercise of a recognized
constitutional right.
Defendants argue that the last two factors – the
balance of harms and the public interest – favor
granting a stay because the Court’s April 17 order
“undermines the State’s ability to effectively prepare
for the incoming wave of [COVID-19] infections and
ensures that the virus may continue to spread through
the State’s healthcare system and beyond.” Id. at 4.
Defendants state that “[i]n recent years, an average of
nearly 50 patients per week obtained surgical abortions
in Tennessee after 11 weeks gestation.” Id. (citing
Tenn. Dep’t of Health, Selected Induced Termination of
Pregnancy (ITOP) Data, According to Age and Race of
Woman, Tennessee and Department of
Health
Regions, Resident Data, 2018, https://www.tn.gov/con
tent/dam/tn/health/documents/vital-statistics/itop/IT
OP2018.pdf). They argue that the Court’s order “all but

App. 76a
guarantees that similar numbers of patients, if not
more, will require medical professionals to expend
valuable personal protective equipment and will flout
the State’s generally applicable social distancing
guidelines, thus putting themselves and everyone they
come into contact with at greater risk of contracting
COVID-19.” Id. But this unsupported assertion, which
defendants also made in opposing plaintiffs’ request for
emergency injunctive relief, disregards the unrebutted
evidence showing that plaintiffs had already adopted
significant procedures for social distancing
and preserving PPE prior to EO-25 taking effect.2 Pls.’

2

Plaintiffs previously indicated that
[e]ven before EO-25 was issued, they proactively adopted
recommendations and guidelines from the Centers for
Disease Control and Prevention (“CDC”), National Abortion
Federation to reduce the spread of COVID-19, while
continuing to comply with all relevant Tennessee laws and
regulations governing abortion. Terrell Decl. ¶ 19; Looney
Decl. ¶ 25; Rovetti Decl. ¶ 8.
For example, the Providers have postponed or cancelled
non-essential procedures such [as] wellness visits. Terrell
Decl. ¶ 26; Looney Decl. ¶ 26; Rovetti Decl. ¶ 8. They screen
patients for symptoms over the telephone prior to their
appointments and when they arrive at the clinics prior to
entering the facilities to ensure that no one experiencing
symptoms of COVID-19 enters the clinic. Terrell Decl.
¶¶ 20-21; Looney Decl. ¶ 27; Rovetti Decl. ¶¶ 9, 11. Based
on the particularized needs of each facility, the Providers
maintain social distancing by, for example, staggering
appointments, asking patients to wait outside the clinic
until their appointment, prohibiting patients from bringing
a support person to their appointment, keeping patients in
separate rooms whenever possible, and spacing patients a
minimum of six feet apart during their time in the clinic.

App. 77a
Br.in Support of Mot. for TRO and/or Prelim. Inj. at
Terrell Decl. ¶ 22; Looney Decl. ¶ 28; Rovetti Decl. ¶¶ 9,
11-12. At any given time, the Providers have fewer people
inside the clinic than they normally had before the
COVID-19 pandemic. Terrell Decl. ¶ 23; Looney Decl. ¶ 26;
Rovetti Decl. ¶¶ 8-9. Where medically appropriate, several
of the Providers have reduced the number of staff in the
clinic and restricted the number of staff in the room during
procedural abortion to only those who are medically
essential or required by law. Terrell Decl. ¶¶ 23-24; Rovetti
Decl. ¶ 24. Additionally, the Providers continuously
disinfect chairs, doorknobs, pens, clipboards, and other
frequently touched surfaces throughout the day. Terrell
Decl. ¶ 27; Looney Decl. ¶ 28; Rovetti Decl. ¶¶ 8, 12.
Abortion care does not require the use of any hospital
resources that may be needed for COVID-19 response such
as hospital beds, ICU beds, or ventilators. Looney Decl.
¶ 30. Indeed, procedural abortion takes place in an
outpatient setting. Id. Procedural abortion involves only
minimal use of PPE: typically gloves, a surgical mask or
reusable plastic face shield, and either reusable scrubs or
a disposable gown or smock. Id. ¶ 29; Terrell Decl. ¶¶ 30;
Rovetti Decl. ¶ 24. None of the Providers stock the N95
respirators that are in short supply during this COVID-19
pandemic. Looney Decl. ¶ 30; Terrell Decl. ¶ 29; Rovetti
Decl. ¶ 24. Procedural abortion after approximately 18
weeks LMP [last menstrual period] requires more PPE
than a procedural abortion at an earlier point in pregnancy,
because it is typically a two-day procedure at that stage.
Looney Decl. ¶ 50. Nevertheless, as explained infra,
abortion care requires vastly less PPE than continuing a
pregnancy. The provision of abortion care in Tennessee
does not deplete hospital resources and the Providers have
made every effort to conserve PPE and minimize the spread
of COVID-19 while still providing this time-sensitive,
essential healthcare to patients. Id. ¶¶ 24, 30; Terrell Decl.
¶ 33; Rovetti Decl. ¶ 24.
Pls.’ Br. in Support of Mot. for TRO and/or Prelim. Inj. at 12-13.

App. 78a
12-13. The Court commends defendants’ efforts to
prepare for an expected increase in COVID-19
infections, but the entirely speculative constraints the
preliminary injunction allegedly imposes on these
efforts do not outweigh the demonstrated irreparable
harm plaintiffs will suffer if a stay is issued,
particularly in light of the many precautionary steps
plaintiffs have taken to limit the spread of the virus
and to conserve PPE. See Op. & Order Granting Pls.’
Mot. for Prelim. Inj. at 9-11. The Court has already
determined that the balancing of harms and the public
interest favor issuing a preliminary injunction, id. at
10-12, and defendants’ arguments do not alter the
Court’s conclusion.
For these reasons, the Court finds that defendants
have not shown that they are entitled to a stay pending
the appeal of the Court’s April 17 opinion and order
granting plaintiffs’ motion for a preliminary injunction.
Accordingly,

IT IS ORDERED that defendants’ motion for a stay
pending appeal is denied.

s/Bernard A. Friedman
BERNARD A. FRIEDMAN
SENIOR UNITED STATES DISTRICT JUDGE
SITTING BY SPECIAL DESIGNATION
Dated:

April 21, 2020
Detroit, Michigan

App. 79a

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-5408
[Filed: May 14, 2020]
__________________________________________
ADAMS & BOYLE, P.C. ET AL.,
)
)
Plaintiffs-Appellees,
)
)
v.
)
)
HERBERT H. SLATERY III, ET AL.,
)
)
Defendants-Appellants.
)
__________________________________________)
ORDER
BEFORE:
MOORE, WHITE, and THAPAR,
Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.

App. 80a
Therefore, the petition is denied. Judge Thapar
would grant rehearing for the reasons stated in his
dissent.

ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 81a

APPENDIX E
[SEAL]
STATE OF TENNESSEE

EXECUTIVE ORDER
BY THE GOVERNOR

No. 25
AN ORDER TO REDUCE THE SPREAD OF
COVID-19 BY LIMITING NON-EMERGENCY
HEALTHCARE PROCEDURES
WHEREAS, emergency government action to limit
the spread of Coronavirus Disease 2019 (COVID-19)
continues to be prudent and necessary as the
illness spreads rapidly throughout our community;
and
WHEREAS, on March 4, 2020, the first case of
COVID-19 in the State of Tennessee was identified,
and 4,362 additional cases of COVID-19 have since
been identified in Tennessee,
demonstrating a
continued, increasing, and serious risk to the health,
safety, and welfare of Tennesseans; and
WHEREAS, the Centers for Disease Control and
Prevention advises that the best way to prevent
COVID-19 is to avoid exposure to it, and exposure
mainly results from close person-to-person contact; and
WHEREAS, unnecessary person-to-person contact
within the healthcare community increases the risk of

App. 82a
COVID-19 spreading to providers and patients
throughout our healthcare system; and
WHEREAS, the American Dental Association and
the Tennessee Dental Association recommend that
dental providers and patients contribute to reducing
the spread of COVID-19 by suspending non-essential
services like hygiene visits and cosmetic and elective
procedures for a minimum of three (3) weeks; and
WHEREAS, the American College of Surgeons has
recommended that each hospital, health system, and
surgeon thoughtfully review all scheduled elective
procedures with a plan to minimize, postpone, or
cancel electively scheduled operations, endoscopies, or
other invasive
procedures and to immediately
minimize use of essential items needed to care for
patients, including, but not limited to, ICU beds,
personal protective equipment, terminal cleaning
supplies, and ventilators; and
WHEREAS, the federal Centers for Medicaid &
Medicare Services recommends limiting all nonessential planned surgeries and procedures, including
dental, until further notice; and
WHEREAS, limiting the dental and medical
procedures that may be performed during the current
state of emergency serves the joint goals of preserving
personal protective equipment for emergency and
essential needs and preventing community spread of
COVID-19 through non-essential patient-provider
interactions; and

App. 83a
WHEREAS, on March 23, 2020, I issued Executive
Order No. 18, which limited non-emergency dental
procedures and non-essential medical procedures; and
WHEREAS, the spread of COVID-19 throughout
Tennessee continues to intensify and warrant
additional limitations on non-essential medical
procedures, thus necessitating amendment of the
provisions Executive Order No. 18 by the issuance of
this superseding Order; and
WHEREAS, in addition to the other emergency
management powers granted by law, Tennessee Code
Annotated, Section 58-2-107(e), provides that during a
state of emergency, the Governor is authorized to
suspend laws and rules regarding the conduct of state
business if necessary to cope with the emergency, order
evacuations from certain areas, make orders
concerning entry and exit and the occupancy of
premises within an emergency area, and take measures
concerning the conduct of civilians and the calling of
public meetings and gatherings, among other things;
and
WHEREAS, the temporary suspension of selected
state laws and rules and the other measures contained
herein are necessary to facilitate the response to the
current emergency.
NOW THEREFORE, I, Bill Lee, Governor of the
State of Tennessee, by virtue of the power and
authority vested in me by the Tennessee Constitution
and other applicable law, in light of the continuing
state of emergency to facilitate the response to COVID19, do hereby order the following statewide:

App. 84a
1. Dental service providers in the State of
Tennessee, including but not limited to dentists,
pediatric dentists, orthodontists, oral surgeons,
periodontists, prosthodontists, and endodontists,
shall not perform any non-emergency dental or
oral procedures. Non-emergency dental or oral
procedures include hygiene visits, cosmetic
procedures, and other elective procedures.
Emergency procedures for patients with acute
dental or oral needs may still be performed,
including treatment for pain, swelling, trauma,
or an abscess.
2. All healthcare professionals and healthcare
facilities in the State of Tennessee shall
postpone surgical and invasive procedures that
are elective and non-urgent. Elective and nonurgent procedures are those procedures that can
be delayed until the expiration of this Order
because they are not required to provide lifesustaining treatment, to prevent death or risk of
substantial impairment of a major bodily
function, or to prevent rapid deterioration or
serious adverse consequences to a patient’s
physical condition if the surgical or invasive
procedure is not performed, as reasonably
determined by a licensed medical provider.
3. In order to conserve personal protective
equipment, healthcare providers and facilities in
Tennessee must limit attendance to essential
personnel in the rooms where surgeries and
invasive procedures are being performed.

App. 85a
4. Non-hospital healthcare providers impacted by
this Order are requested and encouraged to
provide necessary personal protective equipment
in their possession and not required for the
emergency care exempted in the Order,
including, but not limited to, medical gowns,
N95 masks, surgical masks, TYVEK suits, boot
covers, gloves, and/or eye protection to the
Tennessee Emergency Management Agency by
delivering such equipment to the nearest open
Tennessee National Guard Armory listed on the
TEMA website (www.tn.gov/tema) between the
hours of 9:00 a.m. and 2:00 p.m.
5. Any state or local law, order, rule, or regulation
that would limit the application of this Order is
hereby suspended.
6. This Order shall take effect at 12:01 a.m.,
Central Daylight Time, on April 9, 2020, and
shall remain in effect until 12:01 a.m., Central
Daylight Time, on April 30, 2020, at which time
the suspension of any state laws and rules and
the other provisions of this Order shall cease
and be of no further force or effect.
7. Upon becoming effective, this Order amends and
supersedes the provisions of Executive Order
No. 18, dated March 23, 2020.
IN WITNESS WHEREOF, I have subscribed my
signature and caused the Great Seal of the State of
Tennessee to be affixed this 8th day of April, 2020.

App. 86a
/s/

Bill Lee
GOVERNOR

ATTEST:
/s/ Secretary of State

[SEAL]

